         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Faced Multiple Constraints to
       Targeting Recovery Act Funds
       Report No. 11-R-0208         


       April 11, 2011

Report Contributors:                               Benjamin Beeson
                                                   Gabby Fekete
                                                   Natalie Hanson
                                                   Jeffrey Harris
                                                   John Patrick
                                                   Denton Stafford
                                                   Olga Stein
                                                   Jill Trynosky
                                                   Steve Weber




Abbreviations

ARRA          American Recovery and Reinvestment Act of 2009 (Recovery Act)
CWSRF         Clean Water State Revolving Fund
DWSRF         Drinking Water State Revolving Fund
EO            Executive order
EPA           U.S. Environmental Protection Agency
LUST          Leaking Underground Storage Tanks
OIG           Office of Inspector General
OMB           Office of Management and Budget
SRF           State Revolving Fund


Cover photos: 	 From left: Vegetated curb extensions used to decrease stormwater runoff in
                Portland, Oregon (EPA photo); Recovery Act sign in Massachusetts (EPA OIG
                photo); pipes for water main extension project, Goffstown, New Hampshire
                (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                              11-R-0208
                                                                                                        April 11, 2011
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review           EPA Faced Multiple Constraints to Targeting
The objectives of this
                                 Recovery Act Funds
evaluation were to determine
the extent to which the U.S.      What We Found
Environmental Protection
Agency’s (EPA’s) American        After obligating over $7 billion in Recovery Act funds, EPA is unable, both on a
Recovery and Reinvestment        programmatic and national basis, to assess the overall impact of those funds on
Act of 2009 (Recovery Act)       economically disadvantaged communities or those most impacted by the
funds were targeted to           recession. Recovery Act funds were intended to create or save jobs, address
economically disadvantaged       environmental and other challenges, and assist those most impacted by the
communities, and the extent to   recession. EPA specifically sought to address location-specific, community-based
which jobs were created and      public health and environmental needs with its Recovery Act dollars. While EPA
results were achieved in those   was able to track financial expenditures, it considered but could not execute an
communities. We also sought      effort to track the distribution of its Recovery Act funds to economically
to determine the constraints     disadvantaged communities. The effort was hindered by the absence of
faced by EPA in targeting        definitions, data, and measures.
funds and achieving results.
                                 Multiple constraints limited EPA’s ability to target funds to preserve and create
Background                       jobs, as well as reach those most impacted by the recession. Short timeframes and
                                 the resulting emphasis on “shovel ready” projects also contributed to targeting
The Recovery Act provided a      challenges. Further, the development and funding of potential new projects in
total of $7.2 billion for six    disadvantaged communities was hampered both by a lack of time and resources to
programs administered by         prepare applications as well as a lack of priority for those economically
EPA. The programs funded         disadvantaged communities that have environmental needs. Moreover, among the
projects related to the Clean    Recovery Act-funded programs at EPA, the states made the funding decisions for
Water State Revolving Fund,      86 percent of the funds.
Drinking Water State
Revolving Fund, diesel            What We Recommend
emissions reduction, leaking
underground storage tanks,       We recommended that EPA establish a clear and consistent regime that can
Brownfields, and Superfund.      address socioeconomic factors within the bounds of statutory and organizational
                                 constraints. The Agency responded that it did not have the authority or mission to
                                 target Recovery Act funds to disadvantaged communities and that these funds
For further information,         have already been obligated. Nevertheless, EPA agreed that the recommendations
contact our Office of
Congressional, Public Affairs    were consistent with its current efforts to improve the targeting and assessment of
and Management at                low-income, tribal, and minority communities. We modified our recommendation
(202) 566-2391.                  to focus on the achievement of Agency-wide objectives and priorities, and the
                                 inclusion of environmental justice principles in EPA’s decisions. We believe,
The full report is at:
www.epa.gov/oig/reports/2011/
                                 based on verbal representations, that the Agency agreed with our revised
20110411-11-R-0208.pdf           recommendations, and we await its 90-day response to confirm that informal
                                 communication.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                          April 11, 2011

MEMORANDUM

SUBJECT:	              EPA Faced Multiple Constraints to Targeting Recovery Act Funds
                       Report No. 11-R-0208


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Bob Perciasepe
                       Deputy Administrator


This is a report on the evaluation of EPA’s constraints in targeting Recovery Act funds, conducted
by the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).
This report contains findings that describe the problems the OIG has identified and corrective
actions the OIG recommends. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will be
made by EPA managers in accordance with established audit resolution procedures.

The estimated direct labor and travel costs for this report are $580,784.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Wade Najjum at 202-566-0832 or
najjum.wade@epa.gov, Jeffrey Harris at 202-566-0831 or harris.jeffrey@epa.gov, or Jill
(Ferguson) Trynosky, Project Manager, at 202-566-2718 or trynosky.jill@epa.gov.
EPA Faced Multiple Constraints to Targeting                                                                                  11-R-0208
Recovery Act Funds


                                    Table of Contents 

Chapters
   1	    Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                3     

                 Scope and Methodology ..............................................................................               3     


   2	    Full Impact of EPA’s Recovery Act Funds on 

         Disadvantaged Communities Is Unknown.......................................................                                5


                 EPA Did Not Track Targeting of Recovery Act Funds to
                    Economically Disadvantaged Communities ..........................................                               5     

                 Without Tracking, Impact of Recovery Act Funds on
                    Economically Disadvantaged Communities Unknown ..........................                                       6

                 Conclusion ...................................................................................................     7


   3	    EPA’s Ability to Target Recovery Act Funds Was Limited.............................                                        8


                 EPA Programs Have Varying Abilities to Incorporate Jobs and
                    Community Needs in Funding Decisions ...............................................                            8

                 Variations Existed Among EPA Guidance, Documents,
                    Public Outreach Materials, and Recovery Act Goals .............................                                10 

                 Recovery Act Funding Decisions Not Driven by Job Creation ....................                                    10 

                 Recovery Act Milestones Inhibited Targeting Based on Need ....................                                    11 

                 Emphasis on Shovel-Ready Projects Adversely Impacted EPA’s
                     Ability to Address Some Environmental and Economic Needs .............                                        12 

                 States Selected Most of the Projects Receiving EPA
                    Recovery Act Funds ..............................................................................              13     

                 Conclusions.................................................................................................      15 

                 Recommendations ......................................................................................            16 

                 Agency Comments and OIG Evaluation ......................................................                         16 


   Status of Recommendations and Potential Monetary Benefits..............................                                         18 



Appendices
   A     A
         	 gency Response ..............................................................................................           19 


   B	    Detailed SRF Comments on Draft Report From the Office of Water and 

         OIG Response.....................................................................................................         24 


   C	    EPA Office of Policy’s Screening-Level Analysis of EPA ARRA Grants ......                                                 40 


   D     D
         	 istribution .........................................................................................................   44 

                                          Chapter 1 

                                           Introduction

Purpose
                 The supplemental funding of environmental programs by the American Recovery
                 and Reinvestment Act of 2009 (Recovery Act) was expected to achieve results not
                 traditionally tracked by the U.S. Environmental Protection Agency (EPA).
                 Anticipated results were to include creating and retaining jobs, promoting
                 economic recovery, and assisting those most impacted by the recession.
                 Moreover, EPA sought to address location-specific, community-based public
                 health and environmental needs, and it cited environmental justice as a factor in
                 Recovery Act implementation. This report evaluates the extent to which EPA’s
                 Recovery Act funds were targeted to economically disadvantaged communities,
                 and the extent to which jobs were created and results were achieved in those
                 communities. It also analyzes the constraints EPA faced in targeting funds and
                 achieving results.

Background
                 The American Recovery and Reinvestment Act of 20091 was signed into law on
                 February 17, 2009. It authorized $787 billion in funding in the form of tax cuts,
                 contracts, grants, and loans, among other things, to achieve five primary purposes:

                     1.	 To preserve and create jobs and promote economic recovery
                     2.	 To assist those most impacted by the recession
                     3.	 To provide investments needed to increase economic efficiency by
                         spurring technological advances in science and health
                     4.	 To invest in transportation, environmental protection, and other
                         infrastructure that will provide long-term economic benefits
                     5.	 To stabilize state and local government budgets in order to minimize and
                         avoid reductions in essential services and counterproductive state and
                         local tax increases




1
 Information on the Recovery Act, fund provision, and other federal programs implementing funding is available at
http://www.recovery.gov/.


11-R-0208                                                                                                      1
                 These five Recovery Act purposes were designed to feed into the following three
                 immediate goals of the Recovery Act:

                      1. 	 Create new jobs and save existing ones
                      2. 	 Spur economic activity and invest in long-term growth
                      3. 	 Foster unprecedented levels of accountability and transparency in 

                           government spending 


                 Of the $787 billion in Recovery Act funds, EPA received $7.2 billion to award or
                 to disburse.2 Table 1 shows the funds broken down by the six EPA programs
                 involved.

                 Table 1: Amount of Recovery Act funds by program
                                     EPA program                         Recovery Act funding amount
                    Clean Water State Revolving Fund (CWSRF)                        $4 billion
                    Drinking Water State Revolving Fund (DWSRF)                     $2 billion
                    Superfund                                                      $600 million
                    Diesel Emissions Reductions                                    $300 million
                    Leaking Underground Storage Tanks (LUST)                       $200 million
                    Brownfields                                                    $100 million
                 Source: EPA.


                 Recovery Act funding for EPA programs was designed to protect and increase
                 “green” jobs, sustain communities, restore and preserve the economic viability of
                 property, promote scientific advances and technological innovation, and ensure a
                 safer, healthier environment. In its Recovery Act Plan,3 EPA states that these
                 programs were “chosen carefully both for their ability to put people to work now
                 and for their environmental value.” The plan further explains that the Agency
                 sought to address location-specific, community-based public health and
                 environmental needs using Recovery Act dollars, because investing in these needs
                 would assure that job creation, economic growth, and environmental benefits
                 accrue at the local level as well as nationwide.

                 The Recovery Act did not define “those most impacted by the recession.”
                 However, Congress did specify in the joint conference report that they expected
                 the states, as much as possible, to target the additional subsidized monies to
                 communities that could not otherwise afford State Revolving Fund loan. This
                 provision applied to the funds disbursed through the State Revolving Fund (SRF)

2
  EPA Recovery Act funds for the Clean Water State Revolving Fund, Drinking Water State Revolving Fund, and
the Leaking Underground Storage Tank program were distributed to states using existing financing formulas. States,
responsible for implementing these programs under agreements with EPA, selected the projects to fund. EPA
selected the Superfund and Brownfields projects funded. For the diesel emissions reduction projects, EPA selected
projects for 70 percent of the Recovery Act funds, and states selected projects for the remainder.
3
  ENVIRONMENTAL PROTECTION AGENCY RECOVERY ACT PLAN: A STRONG ECONOMY AND A
CLEAN ENVIRONMENT, dated May 15, 2009, was approved by the Office of Management and Budget and is
available at http://www.epa.gov/recovery/plans/EPA.pdf.


11-R-0208                                                                                                       2
                 programs, which accounted for approximately 83 percent of EPA’s Recovery Act
                 funds. A March 2009 EPA Office of Water memorandum to Regional Water
                 Management Division Directors provided “disadvantaged communities,
                 environmental justice communities”, as examples of those that could not
                 otherwise afford an SRF loan.

                 The EPA Administrator promoted environmental justice4 as a factor in the
                 implementation of the Recovery Act. In an April 2009 letter, she reminded
                 another federal agency that Congress intended that consideration be given to the
                 needs of minorities and low-income communities in the use of Recovery Act
                 funds. In addition, the Executive Order on Environmental Justice (EO 12898)
                 specifies that each agency identify and address, as appropriate, disproportionately
                 high and adverse human health or environmental effects of its programs, policies,
                 and activities on minority populations and low-income populations.

Noteworthy Achievements
                 According to recipient reports, EPA’s Recovery Act projects have created or
                 retained as many as 16,603 jobs per quarter5 from the start of funds distribution to
                 December 31, 2010. In congressional testimony delivered on February 23, 2010,
                 EPA’s Senior Accountable Official for the Recovery Act stated that all SRF funds
                 awarded to states were under contract or construction as of the February 17, 2010,
                 deadline. As of February 2011, over 99 percent of EPA’s Recovery Act funds had
                 been obligated.

Scope and Methodology
                 We performed our evaluation from November 2009 through November 2010. Our
                 evaluation covers the period from the Recovery Act’s enactment in February 2009
                 through February 2011, to include the most current data available. We omitted the
                 Diesel Emissions Reduction Act program from our evaluation because it is being
                 evaluated separately by the EPA Office of Inspector General (OIG).

                 We interviewed EPA Recovery Act program staff to learn about selection criteria;
                 Office of Policy, Economics and Innovation personnel regarding data analysis;
                 Office of Environmental Justice personnel regarding the office’s role in Recovery
                 Act efforts; and Environmental Council of the States staff regarding the states’
                 experience with the Recovery Act. We reviewed available Recovery.gov and EPA


4
  EPA defines environmental justice as the fair treatment and meaningful involvement of all people regardless of
race, color, national origin, or income with respect to the development, implementation, and enforcement of
environmental laws, regulations, and policies.
5
  Each quarter of jobs data represents a snapshot of the number of jobs created or retained as reported by Recovery
Act funding recipients for the particular quarter. Recipient-reported jobs created by EPA Recovery Act funds ranged
from 3,899 jobs in the first quarter of the funds distribution (July 1, 2009–September 30, 2009) to a high of 16,603
jobs reported in the fourth quarter of the funds distribution (April 1, 2010–June 30, 2010).


11-R-0208                                                                                                        3
            data, as well as each program’s Recovery Act plans, criteria, and project selection
            process.

            We surveyed program managers and staff members from the 10 EPA regions to
            gather their opinions about the effectiveness of EPA’s funding decisions,
            communications, and processes related to the Recovery Act. In addition to the
            regional survey, we visited program managers and staff members from six states
            to determine the states’ experience in working with EPA on expending Recovery
            Act funds and targeting communities in need. Our sample included the states
            receiving the greatest proportion of EPA’s Recovery Act funds across the
            programs of interest: California, Florida, Illinois, Massachusetts, Michigan, and
            Ohio. In addition, we attended EPA’s 2010 Environmental Justice Conference and
            interviewed select presenters.

            We also reviewed prior reports from the U.S. Government Accountability Office
            on states’ and localities’ use of Recovery Act funds and EPA OIG reports on
            green infrastructure, State Revolving Fund intended use plans, and Recovery Act
            planning activities. The EPA OIG reports resulting from these activities are
            available at http://www.epa.gov/oig/recovery.htm. The U.S. Government
            Accountability Office reports are available at http://www.gao.gov/recovery.

            We conducted this performance evaluation in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
            basis for our findings and conclusions based on our objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based upon our objectives.




11-R-0208                                                                                    4
                                         Chapter 2 

          Full Impact of EPA’s Recovery Act Funds on 

           Disadvantaged Communities Is Unknown 

                After obligating over $7 billion, EPA is unable, both on a programmatic and
                national basis, to assess the overall impact of its Recovery Act funds on
                disadvantaged communities or environmental justice communities. EPA sought to
                address location-specific, community-based public health and environmental
                needs using its Recovery Act dollars. The EPA Administrator recognized that in
                making Recovery Act investments, Congress intended that consideration be given
                to the needs of minorities and low-income communities.6 EPA considered but
                could not execute an effort to track the distribution of its Recovery Act funds to
                economically disadvantaged communities. The effort was hindered by the absence
                of definitions, data, and measures. Rather, EPA collected success stories
                regarding the use of Recovery Act funds to meet community needs.

EPA Did Not Track Targeting of Recovery Act Funds to Economically
Disadvantaged Communities
                In February 2009, EPA’s Office of Environmental Justice raised the issue of
                targeting EPA’s Recovery Act funds to economically disadvantaged communities
                to the Agency’s Stimulus Steering Committee. In April, the committee agreed to
                address the tracking of funds to these communities. The committee subsequently
                requested options on the “story EPA wants to tell,” specifically focusing on
                economically disadvantaged communities given the economic stimulus focus of
                the Recovery Act.

                EPA’s Office of Environmental Justice and the Agency’s Stimulus Subcommittee
                on Measurement researched existing federal and/or other definitions of
                “economically disadvantaged” and presented options to the Agency’s Stimulus
                Steering Committee. The full committee reviewed the subcommittee’s options
                and directed that efforts should focus on mapping employment and income
                indicators, the Economic Development Agency’s “Distress Index,” and EPA
                Recovery Act dollars spent. In November 2009, the Office of Environmental
                Justice met with a statistician to explore how the Economic Distress Index layer is
                created and maintained. The office sought to determine whether the layer could be
                used to measure the impact of EPA Recovery Act funds on economically
                disadvantaged communities. Specific to the SRF programs, documents prepared
                for the Agency’s Stimulus Steering Committee noted that it would be difficult to
                use the U.S. Economic Development Agency’s statutory definition of “distressed

6
  Memorandum from Administrator Jackson to Mr. Alonzo L. Fulgham, Acting Administrator, U.S. Agency for
International Development, April 20, 2009.


11-R-0208                                                                                                 5
            communities”, as well as the U.S. Department of Housing and Urban
            Development and U.S. Department of Agriculture criteria, because the criteria
            may not align with state SRF disadvantaged definitions. Further, maps using the
            county as the unit of analysis may not provide a high enough resolution to
            determine the impact of EPA’s projects. Regarding the Leaking Underground
            Storage Tank (LUST) and Brownfields programs in which the state agency was,
            in some cases, the award recipient, EPA would need to take additional steps to
            obtain further information on where projects occurred or could occur. The
            Steering Subcommittee on Measurement’s initial conclusion was that the use of
            the layer may require resources for regular updates to the data. After this point, no
            additional direction was given by the Agency’s Stimulus Steering Committee, and
            no further action was taken on this matter.

Without Tracking, Impact of Recovery Act Funds on Economically
Disadvantaged Communities Unknown
            The Recovery Act included goals related to creating jobs and reaching those most
            impacted by the recession. EPA did not have a plan or strategy in place to
            integrate these goals into program operations and funding decisions. EPA did not
            systematically identify or seek to direct program funds to those projects or
            communities that are, for socioeconomic reasons, more in need than others.
            Although EPA has an Office of Environmental Justice and several tools to help
            identify potential environmental justice communities, it does not have baseline
            assessment data on a nationwide basis for socioeconomic factors or
            unemployment. Further, as of July 2010, EPA did not have a systematic
            methodology with specific definitions, criteria, or tools to:

               •   Identify communities that are economically disadvantaged
               •   Ensure consistency among program offices or regions
               •   Evaluate the impact of funding decisions on disadvantaged communities

            The Director of EPA’s Office of Environmental Justice detailed these weaknesses
            in a document prepared for our review, outlining the role of the office in the
            Agency’s Recovery Act implementation. The conclusion of the document stated:

                   There is an urgent need for EPA to adopt a consistent approach to
                   identifying minority, low-income and tribal/indigenous areas
                   disproportionately burdened by environmental and health concerns, [and
                   to determine] whether such an approach can serve as a surrogate for
                   cases such as ARRA funding where the primary factor is “economically
                   disadvantaged.”

            EO 12898 requires EPA to consider environmental justice in decision-making,
            and the Administrator has made it a priority area. However, in implementing the
            Recovery Act, EPA did not demonstrate an ability to identify or target these
            communities through program operations.

11-R-0208                                                                                     6
                 In response to questions regarding the accomplishment of the Recovery Act goals
                 to create or retain jobs and assist those most impacted by the recession, EPA
                 managers noted that unemployment data were not incorporated into Recovery Act
                 funding decisions. Stories of reported success in places such as Buckeye Lake,
                 Ohio, provide anecdotal evidence that some EPA Recovery Act projects reached
                 economically disadvantaged communities. However, EPA needs to include and
                 use targeting data in allocating funds so that it can effectively describe the impact
                 its funds had on economically disadvantaged communities and explain how it
                 helped achieve the purposes of the Recovery Act. Further, without targeting data,
                 EPA will not be able to meet the environmental justice requirements of EO
                 12898.


                                                     Success Story Example

                    Buckeye Lake, Ohio, remains one of the largest villages in the State of Ohio
                    without a public drinking water system. The village received $5 million from
                    the Recovery Act to fund a project to bring the area treated water. The median
                    household income for Buckeye Lake is below the State’s average of $36,250.
                    There are a number of public health concerns surrounding the current wells
                    and small public water systems on which the village relies. Construction is
                    underway on the system, which will serve nearly 1,200 households when it is
                    completed.7 Ohio estimates that the project will result in the creation of 50
                    jobs.


Conclusion
                 Within months of its enactment, the EPA Administrator recognized that in making
                 Recovery Act investments, Congress intended that consideration be given to the
                 needs of minorities and low-income communities. EPA considered but could not
                 execute an effort to track the distribution of its Recovery Act funds to
                 economically disadvantaged communities. The effort was hindered by the absence
                 of definitions, data, and measures.

                 If EPA had, prior to the Recovery Act, adopted a consistent approach to
                 identifying minority, low-income, and tribal/indigenous areas disproportionately
                 burdened by environmental and health concerns, it still would have faced multiple
                 constraints to targeting funds and resources to these areas. Chapter 3 describes
                 these statutory, organizational, and programmatic constraints, and offers
                 recommendations for the Agency to address these constraints as it focuses on the
                 achievement of Agency-wide objective and priorities.
7
 The project’s estimated completion was July 2010. The water mains, booster station, and elevated storage tank
went into service in May 2010; 1,100 service connections were due at the end of September 2010. The project,
however, was incomplete as of February 28, 2011.

11-R-0208                                                                                                        7
                                           Chapter 3 

                          EPA’s Ability to Target 

                      Recovery Act Funds Was Limited 

                 Multiple constraints limited EPA’s ability to target funds to preserve and create
                 jobs, as well as reach those most impacted by the recession. EPA programs have
                 varying requirements to incorporate socioeconomic needs in project selection and
                 funding decisions. The Office of Management and Budget (OMB) issued multiple
                 guidance memoranda addressing, among other topics, how to report the numbers
                 of Recovery Act jobs created or retained. Short timeframes and the resulting
                 emphasis on “shovel ready” projects also contributed to targeting challenges. The
                 development and funding of potential new projects in disadvantaged communities
                 was also hampered by a lack of time and resources to prepare applications, as well
                 as a lack of priority for those economically disadvantaged areas that have
                 environmental needs. Moreover, among the Recovery Act-funded programs at
                 EPA, the states made the funding decisions for 86 percent of the funds.

EPA Programs Have Varying Abilities to Incorporate Jobs and
Community Needs in Funding Decisions

                 The majority of EPA’s Recovery Act funding was for the CWSRF and DWSRF
                 grants infrastructure programs. The remainder of the funds was primarily for
                 cleanup projects, specifically Superfund, Brownfields, and LUST. Table 2
                 contrasts the amount of additional money received through Recovery Act funding
                 with fiscal year (FY) 2008 and 2009 funding levels.8 However, neither EPA nor
                 its state partners were required to track the number of jobs created or retained by
                 programs prior to the Recovery Act, so a similar comparison cannot be made for
                 jobs.




8
 We omitted the Diesel Emissions Reduction Act program from our evaluation because it is subject to a separate
OIG program evaluation.

11-R-0208                                                                                                        8
            Table 2: Recovery Act funds received and results
                                               Funding level                     Fourth
                 EPA                                                             quarter      % funds Obligation
               program        Recovery Act         2008             2009          2010        disbursedb deadline
                                                                                  jobsa
              CWSRF              $4 billion     $689 million      $689 million     6,371          78%       02/17/2010
              DWSRF              $2 billion     $829 million      $829 million     2,911          82%       02/17/2010
                          c
              Superfund        $600 million     $262 million      $267 million      432           77%       09/30/2009
                     d
              LUST             $200 million      $72 million      $77 million       349           63%       09/30/2010
              Brownfields      $100 million      $94 million      $97 million       200           42%           None
            Source: EPA. Data for Jobs and Percentage of funds disbursed was current as of March 28, 2011.
            Other values come from EPA’s Recovery Act Plans. Funding levels are rounded to the nearest million.

                a
                  Numbers shown are quarterly report numbers from the fourth quarter of 2010, the most recent
                quarter of data available. According to the Agency, each quarter of jobs data represents a snap-
                shot in time of the number of jobs created or retained as reported by the recipients that received
                Recovery Act funding for the particular quarter [and] the results should not be added cumulatively.
                Also according to the Agency, the number of jobs for all programs are only for first-level recipients
                and do not include subrecipients and others that benefited from Recovery Act funding.
                b
                  The percentage of funds disbursed is the amount disbursed divided by the actual budgeted
                amount found in EPA’s Recovery Act tracking system, not the amount appropriated.
                c
                  According to the Superfund program, the $600 million in Recovery Act funding is comparable only
                to the remedial cleanup amounts funded under FYs 2008 and 2009. The program provided the
                funding amounts for FYs 2008 and 2009 shown in the table above. Superfund program staff also
                informed us that the number of jobs for Superfund only reflects the jobs under EPA contracts and
                cooperative agreements and does not include interagency agreements.
                d
                  The Office of Solid Waste and Emergency Response informed us that the FY 2008 and 2009
                figures should only include the LUST cleanup levels, not the total LUST levels that included
                prevention funding; the office provided the numbers in the table above.

                Each of the EPA programs funded under the Recovery Act was created to address
                specific environmental problems or human health concerns. Additional funding
                for these programs from the Recovery Act was expected to result in outcomes not
                traditionally tracked by EPA: creating and retaining jobs, promoting economic
                recovery, and assisting those most impacted by the recession. However, the ability
                of EPA to consider factors such as the economic conditions in communities
                applying for Recovery Act funds was determined, in part, by the authorizing
                statutes of the funded EPA programs.

                Each program incorporates the socioeconomic conditions of communities in
                project selection differently, if at all. For example, DWSRF allows states to
                establish separate eligibility criteria and special funding options for economically
                disadvantaged communities. The Safe Drinking Water Act defines a
                disadvantaged community as “the service area of a public water system that meets
                affordability criteria established after public review and comment by the State in
                which the public water system is located.” No universal definition of
                “disadvantaged community” is available for public policy purposes. However, a
                disadvantaged community generally is defined in socioeconomic terms, and


11-R-0208                                                                                                        9
            median household income is a typical measure. Income data are also used to
            identify people and households living below the poverty level.

            In the Brownfields program, financial distress and economic need are part of the
            selection criteria. The CWSRF does not have the same provision. However, the
            Recovery Act stipulated that not less than 50 percent of its SRF capitalization
            grants funds should provide additional subsidization to eligible recipients. This
            level is reached through principal forgiveness and negative interest loans or
            grants, thus increasing the eligibility of economically disadvantaged communities.
            The Superfund and LUST programs do not dictate the incorporation of
            socioeconomic factors in project selection or prioritization.

Variations Existed Among EPA Guidance, Documents, Public
Outreach Materials, and Recovery Act Goals
            Overall, there was an absence of actionable EPA guidance or overall strategy on
            how to achieve Recovery Act goals and Agency priorities beyond environmental
            protection. Some managers stated that the Agency was only responsible for the
            environmental protection and infrastructure purposes of the Recovery Act, with
            job creation as a secondary consideration. Of the five Recovery Act purposes,
            only one (to invest in transportation, environmental protection, and other
            infrastructure that will provide long-term economic benefits) is directly related to
            EPA’s mission. Guidance from OMB to EPA as well as guidance from EPA to
            states generally focused on achieving funding obligation deadlines and reporting
            jobs created and retained.

            There was no mention in EPA guidance documents of what actions could be taken
            to further the accomplishment of any Recovery Act goal, other than
            environmental protection and infrastructure improvement. However, in its
            Agency-wide Recovery Act Plan, public correspondence, and promotional
            materials, EPA stated it would be working toward the achievement of the other
            goals. For example, EPA’s Recovery Act Plan and individual program offices’
            plans included a discussion of the need to reach disadvantaged and environmental
            justice communities. In addition, several Recovery Act grants and contracts stated
            within the purpose or description section that the funds were to “preserve and
            create jobs and promote economic recovery.” Further, in Recovery Act
            promotional materials, EPA stated it anticipated that Recovery Act funds would
            create thousands of jobs, jumpstart local economies, and protect human health and
            the environment.

Recovery Act Funding Decisions Not Driven by Job Creation
            Prior to the passage of the Recovery Act, EPA was not required to, and did not set
            targets for, job creation. With passage of the Recovery Act, EPA did not establish
            guidance on how this priority could be incorporated in Recovery Act project
            selections. Per OMB guidance, job creation data were reported by fund recipients

11-R-0208                                                                                    10
            to a national database. EPA did not independently track the numbers or locations
            of new or retained jobs.

            For the most part, EPA program managers lacked data that showed where high
            unemployment rates corresponded with environmental needs, as well as the
            number of jobs created by the different types of EPA projects funded. Because of
            these data gaps, managers were unable to guide states toward specific types of
            projects or into areas with notable unemployment rates. As shown in table 3, only
            1 of the 55 respondents to our EPA regional survey said that his or her region had
            a list of areas most in need of job creation, and only 13 percent of respondents
            acknowledged that their programs had goals for job creation. However, many
            respondents cited job creation as the most important indicator of success for
            EPA’s national Recovery Act program. In contrast, for infrastructure
            improvement needs, 23 percent of respondents were aware that the region had a
            priority list, while more than half were aware of a priority list for environmental
            protection needs.

            Table 3: Regional survey responses
                             Survey question                        Response

                                  Job creation                Yes              No

             Does your region have a list of areas most in
                                                              2%               98%
             need for job creation?

             Does your region have goals for Recovery Act
                                                              13%              87%
             job creation?

                       Infrastructure improvement

             Does your region have a list of areas most in
                                                              23%              77%
             need for infrastructure improvement?

             Does your region have goals for Recovery Act
                                                              32%              68%
             infrastructure improvement?

                        Environmental protection

             Does your region have a list of areas most in
                                                              57%              43%
             need for environmental protection?

             Does your region have goals for Recovery Act
                                                              51%              49%
             environmental protection?
            Source: OIG survey.


Recovery Act Milestones Inhibited Targeting Based on Need
            Recovery Act requirements for the rapid allocation of funds limited the time
            available to define, locate, and/or mitigate any additional barriers to achieving
            goals outside routine program operations. The focus for the regions and program
            offices was on meeting the deadlines mandated by the Recovery Act. EPA staff
            and program managers responding to our survey also referred to the emphasis on
            timeliness and changing guidance as impediments to Recovery Act
            implementation. Our survey asked respondents to rate the extent to which six

11-R-0208                                                                                   11
            areas impeded the effective implementation of the Recovery Act. Fifty-five
            percent of respondents rated “timeliness and adequacy of external guidance” as an
            “impediment” or “significant impediment,” referring to guidance provided from
            OMB or the U.S. Department of Labor. Similarly, 49 percent of respondents
            reported the “ARRA [Recovery Act] statutory requirements” were an
            “impediment” or “significant impediment” to effective implementation. The most
            common examples of impediments mentioned by regional survey respondents
            were getting guidance or definitions on Recovery Act requirements such as
            Davis-Bacon, Buy American, Green Project Reserve, infrastructure, and
            reporting.

            According to state officials, the tight timeframes established in the Recovery Act
            are a significant barrier in utilizing the Recovery Act funds. States have
            considerable latitude in selecting projects that meet their environmental goals and
            needs, particularly in the intended use plan process for the SRFs. However,
            Recovery Act requirements necessitated that some states amend their intended use
            plans to ensure that projects funded met the deadlines. Despite the changes made,
            recipients told us that several projects would have been completed regardless of
            the Recovery Act efforts because the work had already been planned. A state
            representative stated that the Green Project Reserve stipulation caused it to pass
            over some valid, environmentally important public health projects to select those
            that fit green requirements.

Emphasis on Shovel-Ready Projects Adversely Impacted EPA’s
Ability to Address Some Environmental and Economic Needs
            EPA managers and staff implementing Recovery Act guidance identified a
            number of challenges in reaching communities in both economic and
            environmental need with Recovery Act funds. These challenges were primarily
            associated with the “shovel ready” requirement. The challenges included the lack
            of time to prepare applications, lack of priority for areas with both economic and
            environmental needs, and the inability of these communities to prepare timely and
            complete proposals. EPA programs require all applicants (regardless of
            environmental or health conditions) to meet program criteria. For Superfund
            eligibility, the community must have already been on the National Priorities List.
            For water and wastewater projects, applicants must demonstrate a level of
            preparedness to include making sure that permits and design plans are obtained
            and complete. During state visits, we were informed that applicants must
            demonstrate a level of preparedness, including completion of design plans and
            permitting processes, to have water and wastewater projects funded under the
            Recovery Act. According to a consultant for a Recovery Act recipient, the items
            needed for water and wastewater projects are costly and not a priority for
            communities without financial resources to develop their own design plans. More
            importantly, state representatives said that those communities that had not
            prepared the necessary materials in advance were unable to compete for Recovery
            Act funds.

11-R-0208                                                                                  12
            In our regional survey, 74 percent of respondents reported that the designation of
            a community as environmental justice or disadvantaged had a minor or no impact
            on Recovery Act funding decisions. Eleven percent responded that no
            environmental justice areas were identified in their regions. Responses to the
            question, “What do you believe is the most important indicator of the success of
            EPA’s ARRA [Recovery Act] efforts?” most often related to the Agency’s ability
            to spend the Recovery Act funds in a timely manner.

States Selected Most of the Projects Receiving EPA Recovery Act
Funds
            States awarded assistance funds to the projects and communities for the DWSRF,
            CWSRF, and LUST programs, and their decisions determined where EPA’s
            Recovery Act funds were distributed. Whether and how socioeconomic conditions
            influenced project selection was at their discretion. States used a variety of
            techniques to determine which projects and communities would be awarded
            funds. A number of states used websites to solicit public input on specific projects
            and general areas of interest or need. These states noted that the public response
            was overwhelming and showed a high degree of need across their states.

            The Recovery Act specifies, “Each State shall use not less than 50 percent of the
            amount of its capitalization grants to provide additional subsidization to eligible
            recipients in the form of forgiveness of principal, negative interest loans or grants
            or any combination of these.” The intent was for the states to target, as much as
            possible, these additional subsidized funds to communities that could not
            otherwise afford a loan (e.g., disadvantaged communities and environmental
            justice communities). However, EPA does not know whether and to what extent
            these communities were reached.

            As depicted in table 4, states used the available flexibility in determining the
            percentage of forgiveness for their recipients based on their individual state needs
            and philosophies. For example, in Ohio, one of the states opting for broad public
            input, managers decided to fund numerous projects throughout the state rather
            than a few large projects. Ohio funded 287 projects with its $220 million in
            Recovery Act CWSRF funding. Meanwhile, California, a geographically larger
            state, funded 109 projects with its $280 million Recovery Act CWSRF funding.




11-R-0208                                                                                     13
            Table 4: Sampled states forgiveness levels
                                         Funding level               % principal     % principal
                                          (in dollars)              forgiveness      forgiveness
                   State
                                 CWSRF            DWSRF
                                                                     CWSRF               DWSRF
                               Recovery Act     Recovery Act
              California        $280,285,800      $159,008,000          64%               75%
              Florida           $132,286,300       $88,074,000          52%               67%
              Illinois          $177,243,100       $79,538,000          50%               50%
              Massachusetts     $133,057,300       $52,216,000          96%               96%
              Michigan          $168,509,000       $67,454,000          94%               65%
              Ohio              $220,623,100       $58,460,000         100%              100%
            Source: EPA.

            According to EPA, state law in Florida did not preclude the state from forgiving
            loans under the Recovery Act even though such authority does not exist in the
            base CWSRF program. Florida state officials explained that this provision gave
            the state flexibility in CWSRF decision-making. In contrast, State of Illinois
            officials advised that Illinois law had not provided for any forgiveness of
            CWSRF; therefore, it had to make emergency rule changes to implement
            Recovery Act funding. They further advised that Illinois also awarded Recovery
            Act funding differently, funding 50 percent of project cost with Recovery Act
            funding and forgiving 50 percent of Recovery Act funding on all projects.

            States also differed in their execution of the LUST program. Ohio state officials
            advised that the Ohio Bureau of Underground Storage Tank Regulations had
            historically focused on compliance and enforcement of sites with liable owners or
            other sites that had the ability to pay for the cleanup. As a result, they advised that
            many sites without liable owners were not being addressed. They further advised
            that Recovery Act LUST funding provided the opportunity to address such sites.
            In California, state officials told us that the state had to obtain the authority to add
            the Recovery Act funds into the budget. From the state’s perspective, an
            additional layer of federal rules had to be put on top of the state rules for cleaning
            up LUSTs under the Recovery Act. Additionally, they advised that the state also
            had to develop new grant agreement templates and guidance, and create an
            infrastructure for reporting that did not previously exist.

            For the Superfund and Brownfields programs, funding decisions were not made
            by the states. For those programs, states generally did not have many comments
            about their role in the Recovery Act selection process. However, in two of the six
            states visited, managers commented that they would have liked to be more
            involved in the site selection process for these programs.




11-R-0208                                                                                        14
Conclusions
            The extent to which EPA’s Recovery Act funds were targeted and spent, jobs
            created, and results achieved in economically disadvantaged communities are
            unknown. EPA’s contributions under the Recovery Act emphasized
            environmental protection and remediation. These benefits were achieved through
            supplemental funding of existing programs. EPA was able to meet Recovery Act
            funding obligation deadlines; however, it was unable to systematically target or
            track funds to fully address the Recovery Act’s intent. EPA’s Recovery Act-
            funded projects were selected primarily by states. Priority was placed on “shovel
            ready” projects—a characteristic that, in some cases, placed economically
            distressed communities at a disadvantage, according to state officials.

            There were both internal and external organizational constraints to the targeting of
            EPA Recovery Act funds to economically disadvantaged communities. EPA
            program offices are subject to varying requirements to incorporate socioeconomic
            needs in project selection and funding decisions. Within EPA regions, we found
            varying degrees of knowledge as to where high unemployment rates corresponded
            with environmental needs and on the number of jobs created by the different types
            of EPA projects funded by the Recovery Act. Because of these data gaps,
            managers were unable to assist states in looking for specific types of projects or
            into areas with notable unemployment rates. Moreover, among the Recovery Act-
            funded programs at EPA, states made project selection decisions that accounted
            for 86 percent of the funds.

            The supplemental funding of environmental programs by the Recovery Act was
            expected to achieve results not traditionally tracked by EPA, to include creating
            and retaining jobs, promoting economic recovery, and assisting those most
            impacted by the recession. While the Agency faced numerous obstacles to the
            pursuit of these objectives, it did not develop a strategy to overcome them to the
            extent possible. We found no deliberate effort to (1) target funds toward the
            creation of jobs in areas of high unemployment, (2) provide funds to those who
            were most impacted by the recession, or (3) track the degree to which these
            objectives were met. EPA was also hampered because of its limited ability to
            identify disadvantaged communities. Without controls and a strategy, it would be
            difficult for EPA program and state decisionmakers to duplicate their reported
            success in reaching economically disadvantaged communities.

            The EPA Administrator has made environmental justice an Agency-wide priority.
            However, EPA lacks the ability to reach or target communities with these types of
            socioeconomic constraints and is further challenged in its ability to measure the
            impacts of EPA funding on these communities. A clear and consistent Agency
            regime is needed to know whether EPA programs are a vehicle to achieve a
            temporary goal, such as the economic stimulus provided by the Recovery Act, or
            to achieve continuous goals, such as environmental justice.


11-R-0208                                                                                   15
Recommendations
            We recommend that the Deputy Administrator:

                       1.	 Establish a clear and consistent regime that can address
                           socioeconomic factors within the bounds of statutory and
                           organizational constraints. Such a regime should allow the Agency
                           to target program funds to achieve Agency-wide objectives and
                           priorities for the inclusion of environmental justice principles in all
                           of EPA’s decisions.  

                       2.	 Identify the sources of information needed by EPA program
                           offices and managers to assess the socioeconomic conditions in
                           communities. Within the bounds of statutory and organizational
                           constraints, this information should be used to identify and target
                           opportunities for which investment and grants, program funding, or
                           technical assistance would return the most benefits in terms of jobs
                           needed, infrastructure improvements, or economic benefit to the
                           community.  

Agency Comments and OIG Evaluation
            The Agency stated that implementing the first recommendation regarding the
            targeting of Recovery Act funds was not practical because EPA had obligated
            100 percent of its appropriated Recovery Act resources. Moreover, the Agency
            responded that it did not have the authority or mission to target Recovery Act
            funds to disadvantaged communities. Nevertheless, EPA did agree that the
            recommendations were consistent with its current efforts to improve the targeting
            and assessment of low-income, tribal, and minority communities. We modified
            our first recommendation to focus on the achievement of Agency-wide objectives
            and priorities, and to include environmental justice principles in EPA’s decisions.

            The Agency also suggested that we combine and modify our recommendations
            that individual program offices identify sources of information needed to assess
            socioeconomic conditions and build databases to identify the most opportune
            targets where investment through grants, program funding, or technical assistance
            would return the most benefits in terms of jobs needed, infrastructure
            improvements, or economic benefit to the community. Specifically, the Agency
            identified the screening tool under development for Plan EJ 2014 as an
            appropriate vehicle, once available. The OIG agrees that it is not necessary to task
            each program office separately to achieve the intent of these recommendations,
            and we have combined the recommendations.

            However, it is still our intent that EPA work to identify the sources of information
            needed by EPA program offices and managers to assess the socioeconomic
            conditions in communities. As described, the screening tool will assist EPA in

11-R-0208                                                                                      16
            considering potential environmental justice concerns more consistently as they
            implement programs. However, until the screening and targeting tool is designed
            and applied, the extent to which it will assist in planning and targeting future
            efforts towards the most opportune targets where investment through grants,
            program funding, or technical assistance would return the most benefits in terms
            of jobs needed, infrastructure improvements, or economic benefit to the
            community is unknown. During a February 2011 meeting to discuss Agency
            comments and our recommendations, the Agency agreed with our
            recommendations as revised. The recommendations are currently open, pending
            completion of corrective actions.




11-R-0208                                                                                 17
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                         Subject                            Status1     Action Official         Date      Amount      Amount

     1       16    Establish a clear and consistent regime that can           O       Deputy Administrator
                   address socioeconomic factors within the bounds of
                   statutory and organizational constraints. Such a
                   regime should allow the Agency to target program
                   funds to achieve Agency-wide objectives and
                   priorities for the inclusion of environmental justice
                   principles in all of EPA’s decisions.
     2       16    Identify the sources of information needed by its          O       Deputy Administrator
                   program offices and managers to assess the
                   socioeconomic conditions in communities. Within the
                   bounds of statutory and organizational constraints,
                   this information should be used to identify and target
                   opportunities for which investment and grants,
                   program funding, or technical assistance would
                   return the most benefits in terms of jobs needed,
                   infrastructure improvements, or economic benefit to
                   the community.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress



11-R-0208                                                                                                                                  18
                                                                                    Appendix A


                                Agency Response

MEMORANDUM


SUBJECT:	 Response to the Office of Inspector General Draft Report,
          EPA Faced Multiple Constraints to Targeting Recovery Act Funds,
          OPE-FY09-0023, November 9, 2010


TO:	           Arthur Elkins Jr.
               Inspector General


        Thank you for the opportunity to respond to the Office of the Inspector General’s draft
evaluation report, EPA Faced Multiple Constraints to Targeting Recovery Act Funds, No. OPE-
FY09-0023, November 9, 2010. We at the U.S. Environmental Protection Agency greatly
appreciate your undertaking this review; we believe it will help us in achieving Administrator
Lisa P. Jackson’s priorities.

       My response incorporates comment from the EPA’s Office of Water, the Office of
Administration and Resource Management, the Office of Solid Waste and Emergency Response,
the Office of Enforcement and Compliance Assurance, the Office of Policy and the Office of the
Chief Financial Officer. First, we would like to address some concerns with the report overall.
Second, we offer a response to each recommendation. Lastly, we provide additional comments
from the Office of Water to ensure that the final evaluation report contains accurate information.

OVERALL RESPONSE

        Implementing the recommendations regarding the targeting of American Recovery and
Reinvestment Act funds is not practical because the EPA had obligated 100 percent of its
appropriated ARRA resources by September 30, 2010. The draft evaluation report repeatedly
suggests, though it does not explicitly state, that EPA should have targeted and tracked ARRA
project funding in consideration of “socioeconomic needs.” Further, it was never possible for the
EPA to target funding based on such needs because ARRA did not authorize the EPA to do so,
and, as noted in the draft report, states made the funding decisions for 86 percent of the funds.
This was required by the underlying statutes for the programs for which Congress chose to
appropriate ARRA funds. In the enabling statutes for both State Revolving Fund programs the
states have the sole authority to select projects to be funded. Congress made a number of
fundamental changes to underlying statutory authorities for the SRFs via the ARRA
appropriation – for example, waiving the State Matching Fund requirement, providing authority
for grants and principal forgiveness in the Clean Water State Revolving Funds. If Congress

11-R-0208                                                                                      19
intended the EPA or the states to “target” use of funds, it could have or would have done so.
Moreover, ARRA reporting requirements did not authorize the EPA to require states to track
consideration of “socioeconomic needs.”

        Given that states made the funding decisions for 86 percent of the funds, the EPA only
had the ability to impact the allocation of 14 percent or $700 million dollars. In regard to
distribution of the roughly 14 percent of the EPA’s ARRA funds not provided to the states
through mandatory formulas, the funding decision process varied for the two programs involved:
Brownfields and Superfund. The nature of both programs, which address contaminated sites at
former industrial locations or abandoned waste sites, provide significant benefit to disadvantaged
communities often located near the cleanup projects. Our own analysis of the actual distribution
of Brownfields and Superfund awards by county compared to population and income factors
clearly shows that nearly 70 percent of the counties that received ARRA Superfund or
Brownfields grants had a higher percentage minority population than the median county in the
U.S. In addition, nearly 60 percent of ARRA Superfund and Brownfields grant money went to
counties with higher poverty rates than the statewide poverty rate.

OIG Response: The purpose of EPA’s analysis of the distribution of Brownfields and Superfund
awards (see appendix C) is unclear; perhaps it is intended to illustrate that the targeting of disadvantaged
communities is occurring by design or is unnecessary. The excerpt is selective and ignores the analyses’
summary conclusion that “Grants tended to be awarded to counties with higher than average percentage
minority population, but lower that average percentage in poverty.” The OIG decided not to not include
an analysis of Recovery Act spending in this report precisely because EPA does not have baseline
assessment data on a nationwide basis for either socioeconomic factors or unemployment, nor does it
have a systematic methodology with specific definitions, criteria, or tools to identify communities that
are economically disadvantaged. EPA’s own analysis demonstrates the need for a clear and consistent
regime that can address socioeconomic factors, statutory constraints, and organizational constraints to
both guide EPA decisions and evaluate their impacts.


        With respect to the disposition of future funding, the IG recommendations are consistent
with our current efforts to improve our targeting and assessment of low-income, tribal and
minority communities. In the past, EPA program and regional offices have relied upon and used
different screening tools, such as EJSEAT9 for targeted compliance reviews and enforcement
and EJ VIEW for grant or funding resources. To improve upon our existing efforts, Plan EJ
2014, which was announced for public comment in July 2010, has a screening tool as one of its
areas for tool development. Under this plan, the EPA is working to develop a common mapping
platform and a nationally consistent screening and targeting tool to enhance environmental
justice analysis, funding and decision making. Such a tool will help ensure that the EPA's
program managers consider potential environmental-justice concerns more consistently as they
implement programs within statutory mandates and that community stakeholders have more
access to information on how the EPA screens for potential environmental-justice concerns. An
implementation plan for the development and deployment of this environmental-justice
screening tool will be developed by early 2011.



9
    Environmental Justice Strategic Enforcement Assessment Tool (OECA).

11-R-0208                                                                                                20
OIG Response: Earlier, the Agency repeats several OIG observations of why it was not possible to
target or track the use of EPA funds for Recovery Act projects based on “socioeconomic needs,”
including that it was not within its authority. Above, the response states, “With respect to the
disposition of future funding, the IG recommendations are consistent with our current efforts to
improve our targeting and assessment of low-income, tribal and minority communities.” This apparent
conflict between EPA’s authorities and its stated intensions is the fundamental rationale behind our
first recommendation—that EPA establish a clear and consistent regime that can address
socioeconomic factors, statutory constraints and organizational constraints…to target program funds
to achieve Agency-wide objectives and priorities.

        Lastly, it is not clear how the “Recommendations for Deputy Administrator” action on
page 16 result from the presented findings of the draft report. As noted previously, the findings
regarding the SRF programs acknowledge that states are responsible for making decisions on
project selection and funding and that the ARRA statutory priority for “shovel-ready” projects
may have impaired the ability of unprepared communities to receive ARRA funding. As the
“shovel-ready” priority used in ARRA has not been incorporated in the enabling statutes, this
observation has no relevance to the future base program (non-ARRA) activities. Findings about
the unique, specific conditions of ARRA do not bear on implementation of the base programs
absent those conditions, and thus it is not clear what the purpose would be to generalize
programmatically from findings under such unique circumstances.

OIG RECOMMENDATIONS AND THE EPA’S RESPONSE

        Recommendation 1: “We recommend that the Deputy Administrator establish a clear
and consistent regime that can address socioeconomic factors, statutory constraints and
organizational constraints when targeting Recovery Act funds or other funds to Agency-wide
objectives and priorities.”

        Agency Response: The EPA has obligated 100 percent of its appropriated ARRA
program resources and outlaid over 71.4 percent. ARRA resource-distribution decisions were
made in 2009 and any regime developed now could not be retroactively applied. With respect to
the recommendation to apply such a regime to target “other funds to Agency-wide objectives and
priorities” where underlying statutes give states the sole authority to select projects, the EPA will
promote consideration of socioeconomic factors to the extent consistent with statutory
requirements.

        Recommendations 2 and 3: “We recommend that the Deputy Administrator task the
Assistant Administrators of the program offices to identify the sources of information needed to
assess the socioeconomic conditions in communities with existing or potential Superfund, LUST,
and Brownfield sites, and clean and drinking water system needs.”

        “We recommend that the Deputy Administrator task the Assistant Administrators of the
program offices to build a database for use in identifying the most opportune targets where
investment through grants, program funding, or technical assistance would return the most
benefits in terms of jobs needed, infrastructure improvements, or economic benefit to the
community.”

11-R-0208                                                                                          21
       Agency Response: We suggest modifying recommendations 2 and 3 into a single
recommendation as follows: "We recommend that the EPA identify the sources of information
needed to assess the socioeconomic conditions in communities and that this information be
considered when making future investment decisions, which will benefit underserved
communities, to the extent consistent with statutory authority for relevant programs."

        The EPA suggests the revisions for the following reasons: Recommendation 2, as
originally worded, would have the Deputy Administrator task the Assistant Administrators to
identify "sources of information needed to assess the socioeconomic conditions in communities
with existing or potential Superfund, LUST, and Brownfield sites and clean and drinking water
system needs." Rather than tasking all the Assistant Administrators to identify sources of
information, it would be more efficient and effective for the EPA to create one tool to identify
sources of information needed to assess the socioeconomic conditions in communities and then
provide that information to all the Assistant Administrators and Regional Administrators so that
the EPA has a consistent approach to areas assessing socioeconomic needs. The screening tool
that the EPA is developing under Plan 2014 will be available for use by all EPA programs as
applicable.

       Recommendation 3 calls for the EPA to build a database for use in identifying targets for
investment. The screening tool contemplated under Plan 2014 will draw on a number of existing
databases and will provide guidance on the use of these databases in identifying areas of concern.

       Along with this response, I am offering more specific, detailed comments on the report,
and they are attached.

      Should you have any questions, please let me know directly or have your staff contact
Nena Shaw, Special Assistant, Office of the Administrator, at (202) 564-5106.

       In the meantime, I thank you once more for the opportunity to share our thoughts.



                                     Bob Perciasepe




11-R-0208                                                                                     22
    OIG Response: We initially recommended that the Deputy Administrator establish a clear and
    consistent regime that can address socioeconomic factors, statutory constraints, and organizational
    constraints when targeting Recovery Act funds or other funds to Agency-wide objectives and
    priorities. According to the EPA, it has obligated 100 percent of its appropriated ARRA program
    resources and outlaid over 71.4 percent. Although the Agency used existing funding structures to
    disburse the majority of its Recovery Act funds, any regime developed now could not be
    retroactively applied to Recovery Act or other funds already disbursed. Moving forward, we
    believe Agency decision-makers need clear and consistent criteria to determine how and where to
    incorporate Agency-wide objectives and priorities for environmental justice into existing funding
    structures. Therefore, we revise our recommendation to:
    Recommendation 1: We recommend that the Deputy Administrator establish a clear and
    consistent regime that can address socioeconomic factors within the bounds of statutory and
    organizational constraints. Such a regime should allow the Agency to target program funds
    to achieve Agency-wide objectives and priorities, including the inclusion of environmental
    justice principles in all of EPA’s decisions.
    We also initially recommended that the Deputy Administrator task the Assistant Administrators of
    the program offices to identify the sources of information needed to assess the socioeconomic
    conditions in communities with existing or potential Superfund, LUST, and Brownfield sites, and
    clean water and drinking water system needs. In addition, we initially recommended that the
    Deputy Administrator task the Assistant Administrators of the program offices to build a database
    for use in identifying the most opportune targets where investment through grants, program
    funding, or technical assistance would return the most benefits in terms of jobs needed,
    infrastructure improvements, or economic benefit to the community.
    EPA suggests revising the two recommendations into one combined recommendation to allow for
    more efficient and effective use of Agency resources. It suggests that, rather than task each
    Assistant Administrator separately, EPA as an entity can create one tool to identify the sources of
    information needed to assess the socioeconomic conditions in communities across the Agency.
    The screening tool EPA is developing under Plan 2014 will be available for use by all EPA
    programs as applicable.
    We agree that it is not necessary to task each Assistant Administrator separately to achieve the
    intent of these recommendations. However, we do not view the creation or use of a screening tool
    as equivalent to developing a database or data system. As described, this screening tool will assist
    EPA in considering potential environmental justice concerns more consistently as they implement
    programs. However, until the screening and targeting tool is designed and applied, the extent to
    which it will assist in planning and targeting future efforts towards the most opportune targets
    where investment through grants, program funding, or technical assistance would return the most
    benefits in terms of jobs needed, infrastructure improvements, or economic benefit to the
    community is unknown. Therefore, we revise recommendations 2 and 3 into a single
    recommendation:
    Recommendation 2: We recommend that EPA identify the sources of information needed by
    its program offices and managers to assess the socioeconomic conditions in communities.
    Within the bounds of statutory and organizational constraints, this information should be
    used to identify and target opportunities for which investment and grants, program
    funding, or technical assistance would return the most benefits in terms of jobs needed,
    infrastructure improvements, or economic benefit to the community.




11-R-0208                                                                                              23
                                                                                          Appendix B

   Detailed SRF Comments on Draft Report From the
           Office of Water and OIG Response
       1)	 At A Glance, paragraph 1, 1st sentence, “… EPA is unable, both on a programmatic and
           national basis, to assess the overall impact of its Recovery Act funds on economically
           disadvantaged communities…”

           The EPA is able to determine how many jobs were created with each project and are able to
       determine the level of subsidy each project received. We also have recipient locational data for
       each project. This information is available in our respective reporting systems as well as in
       Federalreporting.gov for jobs data. This can be assessed against economic indicators available
       through other departments. It should be noted that the ARRA statute neither required nor
       authorized the EPA to take any action or collect information with regard to economically
       disadvantaged communities specifically. To have done so for the purposes of ARRA –
       notwithstanding ARRA’s lack of such directives and its unprecedented and extremely demanding
       deadlines for action – would have detracted from the EPA’s necessary focus on meeting ARRA’s
       unequivocal priority for immediate action to promote job creation.

     OIG Response: As stated in our report and detailed in documents provided to us by the Director of
     EPA’s Office of Environmental Justice, as of July 2010, EPA did not have a systematic methodology
     with specific definitions, criteria, or tools to identify communities that are economically
     disadvantaged, ensure consistency among program offices or regions, and evaluate the impact of
     funding decisions on disadvantaged communities. Specific to the SRFs, these documents noted that it
     would be difficult to use the U.S. Economic Development Agency’s statutory definition of “distressed
     communities,” as well as the U.S. Department of Housing and Urban Development and U.S.
     Department of Agriculture criteria, because the criteria may not align with state SRF disadvantaged
     definitions. Further, maps using the county as the unit of analysis may not provide a high enough
     resolution to determine the impact of EPA’s projects. Regarding the LUST and Brownfields programs
     in which the state agency was, in some cases, the award recipient, EPA would need to take additional
     steps to obtain further information on where projects occurred or could occur.

     Although the Recovery Act did not specifically require EPA to take action on economically
     disadvantaged communities, the Agency was encouraged to do so by Administrator Jackson and in
     subcommittee language. Despite EPA’s “necessary focus on meeting [the Recovery Act’s]
     unequivocal priority for immediate action to promote job creation,” it is important to note that EPA’s
     existing statutory authorities do not include a job creation requirement, and that Recovery Act funds
     did not change EPA’s programmatic structure. It would therefore follow that EPA’s focus in
     disbursing Recovery Act funds would be on meeting the Agency’s mission to protect human health
     and the environment, as well as following the direction and priorities of the Administrator.


       2)	 At a Glance, paragraph 2, 5rd sentence, “The development and funding of potential
           new projects in disadvantaged communities was hampered, both by a lack of time and
           resources to prepare applications as well as a lack of priority for those economically
           disadvantaged communities…”



11-R-0208                                                                                             24
          Projects that had not begun substantial planning and design work would not have
      created as many jobs in the immediate term as projects that were ready to proceed with
      construction. Furthermore, since ARRA required all SRF projects to be under contract or
      construction by February 17, 2010, projects not ready to move forward immediately
      should not have been funded. Base (i.e., non-ARRA) SRF program resources remained
      available to continue to support of ongoing planning and design work to ensure all
      communities, including disadvantaged communities, that were not ready for ARRA
      would still be ready for SRF funding at the appropriate time.

      OIG Response: This sentence focused on disadvantaged communities’ inability to develop
      projects in time to use Recovery Act funds. During state visits, we were informed that those most
      in need of receiving Recovery Act funding were unable to receive funding because of a lack of
      preparedness. It is unclear, given our finding that socioeconomic data gaps made managers unable
      to assist states in looking for specific types of projects or into areas with notable unemployment
      rates, how these projects would be ready for “SRF funding at the appropriate time.” In addition,
      most EPA regional respondents to our survey did not possess lists of areas most in need for job
      creation (98 percent) or infrastructure improvement (77 percent). Without a clear and consistent
      regime to address the factors identified in this report and to direct Agency funds to the most
      opportune targets for investment, it is unclear how EPA, including the SRF program, will know the
      appropriate locations and times at which it will be most beneficial to the community to provide
      resources. 

      3)	 At a Glance, paragraph 2, 6th sentence, “Moreover, among the Recovery Act-funded
          programs at EPA, decisions for 86 percent of the funds were delegated to the States.”

          This sentence implies that the EPA decided to delegate decisions under ARRA to the
      states and ignores the fact that the enabling statutes for both SRFs require funding
      decisions to be made by the states. Also, the use of “moreover” assumes that the states'
      funding choices negatively impacted funding decisions. Decision making by the states, as
      required by statute, is not counterproductive to assisting economically disadvantaged
      communities as the report implies. Indeed, it can achieve substantial benefits the EPA is
      not as well positioned to achieve. States must conduct a detailed financial assessment of
      each potential loan recipient to ascertain the community’s ability to repay the loans. As a
      result, states are uniquely qualified to determine which communities could not otherwise
      afford an SRF loan and what level of additional subsidy is necessary to yield a financially
      viable infrastructure project.

       OIG Response: This section of the report describes the multiple constraints that impacted
       EPA’s ability to target funds to preserve and create jobs, as well as reach those most impacted
       by the recession. In the first paragraph of EPA’s OVERALL RESPONSE section, it notes that
       states made funding decisions for 86 percent of EPA’s Recovery Act funds. There is no value
       judgment regarding the states’ decisions. We revised the statement to remove the term
       “delegated”. We use the term “Moreover,” as defined by Merriam Webster, “to convey
       information, in addition to what has been said.” Revised report statement: “Moreover,
       among the Recovery Act-funded programs at EPA, the states made the funding decisions for
       86 percent of the funds.”



11-R-0208                                                                                            25
      4)	 At a Glance, paragraph 2, 7th sentence, “In the future, infrastructure and
          environmental conditions in economically disadvantaged communities may become
          increasingly vulnerable to deterioration as funding and assistance levels decrease.”

          There is no information or evidence provided anywhere in the draft report to support
      or substantiate this statement. As a practical matter, deterioration of infrastructure assets
      is due to the age of assets as well as inadequate operations and maintenance (O&M)
      spending. Further, the EPA does not know how Congress may choose to appropriate
      funds and/or direct funding in the future nor do we know how the states may choose to
      appropriate and/or direct state funding in the future.

       OIG Response: The total stimulus funding for the two SRF programs was almost four times
       larger than the FY 2009 appropriations for these programs. With the fourfold increase in
       funds, EPA was able to reach more communities overall, including disadvantaged
       communities. However, absent planning and a strategy for how to prioritize these factors in
       funding, there is no assurance the results achieved can be repeated. There is not another
       Recovery Act funding opportunity currently planned to continue this cycle. The Administrator
       has cited the vulnerability of environmental justice and economically disadvantaged
       communities in communication with the public. Combining those factors evidences the fact
       that these communities could potentially deterioration further if they did not receive Recovery
       Act funding. Nevertheless, acknowledging that other factors besides funding can impact
       conditions, as well as the uncertainty of any future scenario, we deleted the sentence.  


      5)	 Report, Page 1, paragraph 1, 3rd sentence “Moreover, the agency sought to address
          location-specific, community-based public health and environmental needs…”

          This sentence represents a misunderstanding of the language used in the EPA
      Recovery Act Plan, which simply makes the factual statement: “The programs targeted
      by EPA’s portion of Recovery Act dollars address location-specific, community-based
      public health and environmental needs.” Each EPA program targeted by Congress to
      receive ARRA funding is clearly designed to address location-specific, community-based
      public health and environmental needs.

       OIG Response: We use the language “sought to address” because, in our evaluation of the
       extent to which EPA’s Recovery Act funds were targeted, jobs were created, and results
       were achieved in economically disadvantaged communities, we did not find evidence that
       EPA Recovery Act funding was clearly designed to address location-specific, community-
       based public health and environmental needs. As described in our report, as of July 2010,
       EPA did not have baseline assessment data on a nationwide basis for either socioeconomic
       factors or unemployment, nor did it have a systematic methodology with specific
       definitions, criteria, or tools to identify communities that are economically disadvantaged.
       The absence of information creates a challenge to determine the extent to which these
       location-specific, community-based public health and environmental needs are actually met
       with Recovery Act funding. As noted in the Agency’s response to our report, “the EPA is
       working to develop a common mapping platform and a nationally consistent screening and
       targeting tool to enhance environmental justice analysis, funding and decision making.”  



11-R-0208                                                                                             26
      6)	 Report, Page 1, paragraph 1, 3rd sentence “…and it cited environmental justice as a
          factor in Recovery Act implementation.”

          Environmental justice appears as follows on page 6 of the Recovery Act plan
      regarding the SRFs: "A greater share of federal funds provided for local clean water and
      drinking water projects, including disadvantaged and environmental justice
      communities." The share of federal funds was increased for all projects due to
      elimination of state-match requirement and then further increased due to the provision of
      additional subsidy to select recipient communities. Thus, every ARRA-funded SRF
      assistance agreement, including those to disadvantaged and environmental-justice
      communities, provided a greater share of federal funds for projects, and this goal was
      met.
        OIG Response: Administrator Jackson also cited environmental justice in a memorandum to
        another federal agency on April 20, 2009, noting, “In enacting the Recovery Act, Congress
        intended that funding benefit all people, regardless of race, age, color, national origin, or
        income. This includes ensuring that consideration is given to the needs of minority and low-
        income communities.” Regardless of whether the increase in federal funds for all projects
        resulted in additional Recovery Act-funded SRF assistance agreements that reached
        disadvantaged and low-income communities, EPA did not have a deliberate, targeted
        approach to reach these communities.

      7)	 Report, Page 1, paragraph 2, 2nd sentence “The Act authorized $787 billion in
          funding in the form of tax cuts, contracts, grants, and loans, among other things, to
          achieve five primary purposes:…”

          Stating that the $787 billion in ARRA funds was for five primary purposes implies
      that all $787 billion was equally intended to produce all five outcomes. This is incorrect.
      For instance, goal #3 is “to provide investments needed to increase economic efficiency
      by spurring technological advances in science and health.” This goal clearly applies to
      programs, created or funded by ARRA, that provide research funding or economic
      development funding to particular fields of science or health. The funds provided to the
      EPA programs were for infrastructure spending. The five goals encompass the purpose of
      the aggregate of all appropriations in the Act. Each line item of the Act was not intended
      to meet each goal.

        OIG Response: The statement appears in our “Background” section and provides the reader
        with information about the amount of funding associated with the Recovery Act and its
        primary purposes. The purposes are from section 3a of the act.

        We recognize that each line item of the Recovery Act was not intended to meet each of the
        five goals; however, the act did not state, nor did the Administrator direct, that the EPA
        Recovery Act funds would only be used for infrastructure spending. In its Agency-wide
        Recovery Act Plan, public correspondence, and promotional materials, EPA stated it would
        be working toward the achievement of the other goals, stating in the purpose or description
        section of Recovery Act grants and contracts that the funds were to “preserve and create jobs
        and promote economic recovery.”  



11-R-0208                                                                                               27
      8)	 Report, Page 2, last paragraph, 2nd sentence, “However, Congress did specify that a portion
          of EPA’s funds should be awarded as subsidies to communities that could not otherwise
          afford infrastructure loans. “

           This suggestion that the affordability language was statutory is misleading and factually
      incorrect. The draft report is presumably referring to, without quoting, a sentence in the joint
      explanatory statement that accompanied the statutory language of the conference report. This
      sentence does not appear in the statute nor does any language that in any way constrains the
      states’ discretion on how to allocate the subsidies. The conference report states: “The bill does not
      include language proposed by the House that would require a specific amount for communities
      that meet affordability criteria set by the Governor. However, the Conferees expect the States to
      target, as much as possible, the additional subsidized monies to communities that could not
      otherwise afford an SRF loan.” Further, for the DWSRF, which has an additional subsidy for
      disadvantaged communities’ provision in its enabling statute, ARRA actively divorced a state's
      decision to provide additional subsidy under ARRA from the subsidy for disadvantaged
      assistance.

       OIG Response: The sentence, along with the sentence in comment 9, was changed to more
       accurately reflect the language included in the March 2009 Office of Water memorandum. The
       report sentence cited above does not state that Congress constrained the states’ discretion on
       how to allocate the subsidies. The Recovery Act contains the following requirement:

               That notwithstanding the requirements of section 603(d) of the Federal Water Pollution
               Control Act or section 1452(f) of the Safe Drinking Water Act, for the funds
               appropriated herein, each State shall use not less than 50 percent of the amount of its
               capitalization grants to provide additional subsidization to eligible recipients in the
               form of forgiveness of principal, negative interest loans or grants or any combination
               of these...

       Our report sentence further reflects congressional recognition that issues such as
       socioeconomic disadvantage should be considered in awarding Recovery Act funds, as stated
       in the Joint Explanatory Statement in Conference Report 111-16, “The Conferees expect the
       States to target, as much as possible, the additional subsidized monies to communities that
       could not otherwise afford an SRF loan.”

      9)	 Report, Page 3, paragraph 1, 1st complete sentence, “A March 2009 EPA Office of
          Water memo to Regional Water Management Division Directors further defined
          communities that could not otherwise afford an SRF loan, as “(e.g., disadvantaged
          communities, environmental justice communities)”.”

              This quote from the March 2009 memo has not been accurately interpreted. The
      memo did not define communities that could not otherwise afford a SRF loan. It merely
      conveyed the conference language as described above with the addition of the language
      in parenthesis. The provision of examples is not a definition. The SRF program
      knowingly and appropriately used “e.g.” in this situation to convey examples of
      communities that could not afford a loan.




11-R-0208                                                                                              28
     OIG Response: The sentence, along with the sentence in comment 8, was changed to more
     accurately reflect the language included in the March 2009 memorandum. Revised report
     statement: “A March 2009 EPA Office of Water memorandum to Regional Water Management
     Division Directors provided ‘disadvantaged communities, environmental justice communities’
     as examples of those that could not otherwise afford an SRF loan.” 


      10) Report, Page 5, 1st sentence, first paragraph, “… EPA is unable, both on a
          programmatic and national basis, to assess the overall impact of its Recovery Act
          funds on disadvantaged communities…”

          The EPA is able to determine how many jobs were created with each project, is able
      to determine the amount of subsidy each project received and has the locational data for
      each project. The EPA can assess that information against locational economic indicators
      maintained by other departments (for example, median household income).

      OIG Response: As stated in our report and detailed in documents provided to us by the
      Director of EPA’s Office of Environmental Justice, as of July 2010, EPA did not have a
      systematic methodology with specific definitions, criteria, or tools to identify communities
      that are economically disadvantaged, ensure consistency among program offices or regions,
      and evaluate the impact of funding decisions on disadvantaged communities. Specific to the
      SRFs, these documents noted that it would be difficult to use the U.S. Economic
      Development Agency’s statutory definition of “distressed communities,” as well as U.S.
      Department of Housing and Urban Development and U.S. Department of Agriculture criteria,
      because the criteria may not align with state SRF disadvantaged definitions. Further, maps
      using the county as the unit of analysis may not provide a high enough resolution to
      determine the impact of EPA’s projects. Regarding the LUST and Brownfields programs in
      which the state agency was, in some cases, the award recipient, EPA would need to take
      additional steps to obtain further information on where projects occurred or could occur.

      Although the Recovery Act did not specifically require EPA to take action on economically
      disadvantaged communities, the Agency was encouraged to do so by Administrator Jackson
      and in subcommittee language. Despite EPA’s “necessary focus on meeting [the Recovery
      Act’s] unequivocal priority for immediate action to promote job creation,” it is important to
      note that EPA’s existing statutory authorities do not include a job creation requirement, and
      that Recovery Act funds did not change EPA’s programmatic structure. Therefore, EPA’s
      necessary focus in disbursing Recovery Act funds would be on meeting the Agency’s mission
      to protect human health and the environment, as well as following the direction and priorities
      of the Administrator.

      11) Report, Page 5, 1st paragraph, 4th sentence, “Congress intended consideration to be
          given to the needs of minorities…”

         That Congress intended consideration to be given to the needs of minorities in
      making Recovery Act decisions is not reflected in either ARRA or ARRA conference
      report language. This assertion is made with no supporting examples or citations.
      OIG Response: This statement and its context appear on page 3 of our report. It is from an
      April 2009 letter from Administrator Jackson; we added a specific footnote to provide further
      clarification on page 5. Additional footnote added to report: “Memorandum from
      Administrator Jackson to Mr. Alonzo L. Fulgham, Acting Administrator, U.S. Agency for
      International Development, April 20, 2009.”

11-R-0208                                                                                              29
      12) Report, Page 6, 2nd paragraph, 2nd sentence, “EPA did not have a plan or strategy
         in place it could utilize to integrate these goals into program operations and funding
         decisions.”

          While the SRFs did not develop any new plans for integrating environmental justice
      into program operations for ARRA, the DWSRF, consistent with its enabling statute,
      required funds to be made available for small systems, allowed need on a per household
      basis according to state affordability criteria to be a part of priority setting, and allowed
      for states to use subsidy through their existing disadvantaged assistance programs. Both
      SRFs allow rates to be set based on affordability. These are existing elements of the
      programs.
       OIG Response: The sentence cited refers to EPA as an Agency, not specific program offices.
       In addition, the section that contains this sentence refers to work done specifically for the
       Recovery Act, not to existing programmatic elements. In our regional survey, we found that
       regions did not have a consistent definition for disadvantaged communities. Moreover, as
       explained in our report, EPA did not systematically identify or seek to direct program funds to
       projects or communities that are, for socioeconomic reasons, more in need than others. In the
       case of the SRF program, for example, these decisions were left to individual states.  

      13) Report, Page 6, 2nd paragraph, 2nd sentence, “EPA did not systematically identify or
         seek to direct program funds to those projects or communities that are, for
         socioeconomic reasons, more in need than others.”

          The enabling statute for both SRFs requires funding decisions to be made by the
      states. This sentence inaccurately implies that the EPA could have made funding
      decisions and disregards the fact that the EPA was legally precluded from making
      funding decisions for the states.

       OIG Response: EPA did not identify or provide direction to program decisionmakers on the
       most opportune targets for achieving environmental and public health goals in communities
       that are, for socioeconomic reasons, more in need than others. It is correct that Recovery Act
       reporting requirements did not authorize the EPA to require states to track consideration of
       “socioeconomic needs.” However, the Recovery Act does not prohibit the Agency itself
       from tracking the consideration of socioeconomic factors. With the Administrator’s priority
       to include environmental justice principles in all of [EPA’s] decisions, tracking this
       information would inform the Agency on the extent to which need exists in these
       communities and identify the progress made through Agency efforts.  

      14) Report, Page 6, 3rd paragraph, Text Box Quotation

           The quote comes from an unidentified OEJ source document. At minimum, the
      material must be documented and identified in a footnote. We note that the text provided
      is a sentence fragment, despite the use of a period, and appears to selectively quote from
      a complete sentence. Absent the necessary context of the source document, there is no
      way to address or evaluate this statement.
        OIG Response: The source document cited in the report was created by the Director of
        EPA's Office of Environmental Justice and provided to the OIG. The quote is direct, not
        selective.
11-R-0208                                                                                               30
      15) Report, Page 6, 4th paragraph, 1st sentence, “In response to questions regarding the
         accomplishment of the Recovery Act goals to create or retain jobs and assist those
         most impacted by the recession, EPA managers noted that unemployment data were
         not incorporated into Recovery Act Funding decisions.”

          Again, the report fails to distinguish between formula grant programs and programs
      where funding decisions are made at the EPA. We would note that at the state level, most
      DWSRF disadvantaged-assistance programs assess user rate as a percentage of median
      household income, which we believe is a better indicator of an economically
      disadvantaged community than unemployment data. Additionally, SDWA allows for
      need on a per household basis according to state affordability criteria to be a part of
      priority setting. It is not clear why EPA managers would or should be privy to this
      information when funding decisions are statutorily required to be made by states.

        OIG Response: The sentence describes the comments we received in response to the
        questions on job creation and EPA’s ability to target economically disadvantaged areas.
        Respondents were asked, “Based on your experience, if a community was designated as an
        environmental justice or disadvantaged community, what impact did that have on EPA's
        ARRA (Recovery Act) award process?” Seventy-four percent of respondents reported that
        the designation had “minor impact” or “no impact” on Recovery Act funding decisions,
        and 11 percent responded “No such communities identified.” In addition, an SRF
        representative said that he could not see how any job tracking would have happened, and
        that there was likely little consideration of unemployment figures in the decision-making
        process.  

      16) Report, Page 8, paragraph 1, 1st sentence, “EPA’s ability to target funds to preserve
         and create jobs as well as reach those most impacted by the recession was limited by
         multiple constraints.”

           The principal constraint is underlying statutory authority, and it must be recognized
      first. The EPA obviously cannot act in a manner contrary to the underlying enabling
      statutes. Furthermore, every dollar spent on infrastructure and made possible through
      ARRA creates jobs and positively impacts the recession, as noted by studies conducted
      by both the Council of Economic Advisors and the Congressional Budget Office.

       OIG Response: In our regional survey, only 21 percent of respondents viewed underlying
       statutory authority as an impediment to executing Recovery Act funds. While the SRF
       program managers at EPA headquarters may view this as the principal constraint, it is not an
       opinion shared by all managers in the Agency. In addition, the Administrator’s priority for
       environmental justice is that it must be included “in all of our decisions.” The Agency
       response to this report states that “the IG recommendations are consistent with our current
       efforts to improve our targeting and assessment of low-income, tribal and minority
       communities.” If the Agency determines there are statutory restrictions prohibiting it from
       advancing this priority and/or EO 12898 in some of its programs, it should communicate this
       message to the public, delineating where it can and cannot work toward its priority.


11-R-0208                                                                                             31
      17) Report, Page 8, paragraph 1, 3rd and 4th complete sentences, “Short timeframes and
         the resulting emphasis on “shovel-ready” projects also contributed to targeting
         challenges. The development and funding of potential new projects in disadvantaged
         communities was hampered by a lack of time and resources to prepare applications
         as well as a lack of priority for those economically disadvantaged areas that have
         environmental needs.”

           Projects that had not begun substantial planning and design work would not have
      created as many jobs in the immediate term as projects that were ready to proceed with
      construction. Furthermore, since ARRA required all SRF projects to be under contract or
      construction by February 17, 2010, projects not ready to immediately move forward
      should not have been funded. It should be noted that the “short timeframes” and
      “emphasis on 'shovel-ready' projects” were established by Congress in the ARRA. Base
      (i.e., non-ARRA) SRF program resources remained available to continue support of
      ongoing planning and design work to ensure all communities, including disadvantaged
      communities, that were not ready for ARRA would still be ready for SRF funding at the
      appropriate time.

       OIG Response: The report sentences in question refer to EPA’s inability to develop and fund
       new projects in disadvantaged communities using Recovery Act funds. The Agency response
       supports this finding. The ability of a project to create more jobs than another was not a factor
       EPA considered in selecting Recovery Act projects. While EPA states that, "Projects that had
       not begun substantial planning and design work would not have created as many jobs in the
       immediate term as projects that were ready to proceed with construction," SRF
       representatives told us that because the Recovery Act did not specifically instruct then to
       make job creation part of their selection criteria, they did not modify any SRF criteria to
       allow preference for projects that create more jobs than others, whether in the immediate or
       long term. Further, as repeated in this response, EPA left the selection to the discretion of the
       states for a large majority of the Recovery Act funds. During more than one state visit, we
       were told the challenges outlined in our report particularly impeded the ability of
       disadvantaged communities to obtain Recovery Act funding. The processes and procedures
       for the Recovery Act and EPA programs’ statutory requirements limit the ability of EPA to
       directly reach economically disadvantaged communities. These limitations were compounded
       by the lack of a coordinated Agency strategy to target communities most in need; hence
       “current efforts to improve our targeting and assessment of low-income, tribal and minority
       communities.”




11-R-0208                                                                                              32
      18) Report, Page 8, paragraph 1, 5th complete sentence, “Moreover, among the
         Recovery Act-funded programs at EPA, decisions for 86 percent of the funds were
         delegated to the States.”

          This reflects the underlying statutory authority of the programs for which Congress
      chose to appropriate ARRA funds. The enabling legislation for both SRF programs
      requires states to decide which are to be funded. This sentence disregards the fact that the
      EPA was legally precluded from making funding decisions for the states. Furthermore,
      the term “delegation” implies that the EPA decided or was compelled to allow states to
      have such authority when, in fact, such authority is specifically given to states through
      implementing statutes.
       OIG Response: See response to comment 3. (This section of the report describes the
       multiple constraints that impacted EPA’s ability to target funds to preserve and create jobs,
       as well as reach those most impacted by the recession.) In the first paragraph of EPA’s
       OVERALL RESPONSE section, it notes that states made funding decisions for 86 percent of
       EPA’s Recovery Act funds. There is no value judgment regarding the states’ decisions. We
       revised the statement to remove the term “delegated.” We use the term “Moreover,” as
       defined by Merriam Webster, “to convey information, in addition to what has been said.”
       Revised report statement: “Moreover, among the Recovery Act-funded programs at EPA,
       the states made the funding decisions for 86 percent of the funds.”


      19) Report, Page 8, paragraph 1, 6th complete sentence, “In the future, infrastructure
         and environmental conditions in economically disadvantaged communities may
         become increasingly vulnerable to deterioration as funding and assistance levels
         decrease.”

          There is no information or evidence provided anywhere in the draft report to support
      or substantiate this claim. As a practical matter, deterioration of infrastructure assets is
      due to inadequate operations and maintenance (O&M) spending. Further, the EPA does
      not know how Congress may choose to appropriate funds and/or direct funding in the
      future nor do we know how states may choose to appropriate and/or direct state funding
      in the future.

       OIG Response: The total stimulus funding for the two SRF programs was almost four
       times larger than the FY 2009 appropriations for these programs. With the fourfold increase
       in funds, EPA was able to reach more communities overall, including disadvantaged
       communities. However, absent planning and a strategy for how to prioritize these factors in
       funding, there is no assurance the results achieved can be repeated. There is not another
       Recovery Act funding opportunity currently planned to continue this cycle. The
       Administrator has cited the vulnerability of environmental justice and economically
       disadvantaged communities in communication with the public. Combining those factors
       evidences the fact that these communities could potentially deterioration further if they did
       not receive Recovery Act funding. Nevertheless, acknowledging that other factors besides
       funding can impact conditions, as well as the uncertainty of any future scenario, we deleted
       the sentence.  



11-R-0208                                                                                              33
      20) Report, Page 11, paragraph 1, 2nd sentence, “These data gaps made managers
          unable to assist States to look for specific types of projects or into areas with notable
          unemployment rates.”

          In the case of the SRFs, states did not identify this type of data as a need. The
      individual state programs are better situated to understand and identify such areas or
      communities in their state and may prefer to use other data to determine economic need.
      Furthermore, unemployment data is widely available for state programs, if so needed.

       OIG Response: Our report speaks to the Agency as a whole, not to only the SRFs. As
       indicated in the Agency OVERALL RESPONSE, EPA is working to “develop a . . .
       nationally consistent screening and targeting tool to enhance environmental justice analysis,
       funding and decision making. Such a tool will help ensure that the EPA’s program managers
       consider potential environmental-justice concerns more consistently as they implement
       programs within statutory mandates and that community stakeholders have more access to
       information on how the EPA screens for potential environmental-justice concerns.” Without
       baseline assessment data on where socioeconomic factors or unemployment coincide with
       environmental need, EPA cannot effectively advise states on the incorporation of these
       factors into program decisions.EPA anticipates that the Plan EJ 2014 screening tool, when
       implemented, could aid in identifying employment needs, working with the states to
       determine need, and creating a harmonized Agency environmental justice program.  

      21) Report, Page 11, paragraph 1, 6th sentence, “In contrast, for infrastructure
          improvement needs, twenty three percent of respondents were aware of a priority list
          in the region, while for environmental protection needs, more than half were aware of
          a priority list.”

          For the SRF programs, each state must maintain an intended use plan and priority list
      for SRF infrastructure improvements. In addition, each state also possesses relatively
      comprehensive data on infrastructure needs through the Clean Watersheds Needs Survey
      and the Drinking Water Needs Survey. Because state SRF programs make funding
      decisions, as required by statute, the awareness that EPA regional staff may have of
      priority lists is irrelevant to the decisions made by states.

        OIG Response: The sentence in question refers to the survey conducted as part of our
        evaluation. The Regions were not able to inform the states in making decisions regarding
        infrastructure or priority setting, which limited the Agency's ability as a whole to assess
        impact. We were told by SRF representatives in headquarters that regional representatives
        review the state intended use plans, looking at eligibility, reviewing the subsidy amount and
        checking for consistency with the State priorities. Regardless of the existence of
        comprehensive data at the state level, EPA has not consolidated and contrasted these data
        on a national basis. Awareness of employment impacts and community needs is relevant in
        light of the Agency's efforts to improve its targeting and assessment of low-income, tribal
        and minority communities. The sentence merely contrasts the relatively low state of
        knowledge regarding jobs among regional staff and their relatively greater knowledge of
        infrastructure and environmental needs.



11-R-0208                                                                                               34
      22) Report, Page 12, paragraph 3, 4th sentence, “EPA programs require all applicants
          (regardless of environmental or health conditions) to meet program criteria.”

          This sentence seems to imply that such program criteria present challenges to state
      programs that are attempting to reach disadvantaged communities. Program criteria are
      intended to ensure compliance with all applicable laws and to ensure fairness in
      determining potential recipients.

      OIG Response: We believe it is important to explain to the public that, regardless of economic
      or environmental circumstances, EPA could not award Recovery Act funds in any place or
      manner it chose. This sentence is a statement of fact; there are no implications. Applicants
      were required to complete application requirements and program criteria before receiving
      Recovery Act funds.


      23) Report, Page 12, paragraph 3, 6th sentence, “For water and waste water projects,
          applicants must demonstrate a level of preparedness to include making sure that
          permits and design plans are obtained and complete.”

           The draft report provides no factual basis for this assertion. Given planning and
      design are eligible activities for funding under SRFs, this is clearly incorrect. However, it
      is true, that absent designs and permits, a project may not have been "ready to proceed",
      thus less likely to receive funding, consistent with the ARRA statutory direction.

      OIG Response: We attributed this sentence to the states sampled in our evaluation. We
      appreciate the concurrence from the Agency that “It is true, that absent designs and permits, a
      project may not have been ‘ready to proceed’, thus less likely to receive funding.” Revised
      report statement: During state visits, we were informed that applicants must demonstrate a
      level of preparedness, including completion of design plans and permitting processes, to have
      water and wastewater projects funded under the Recovery Act.



      24) Report, Page 13, paragraph 2, 1st sentence, “States awarded assistance funds to the
          projects and communities for the DWSRF, CWSRF, and LUST programs and their
          decisions primarily determined where EPA’s Recovery Act funds for those programs
          were distributed.”

         Delete “primarily” from the sentence and insert “for those programs” between
      “EPA’s Recovery Act funds” and “were distributed.”

            OIG Response: We agree and made the suggested change in the report text. Revised
            report statement: States awarded assistance funds to the projects and communities for
            the DWSRF, CWSRF, and LUST programs, and their decisions determined where EPA’s
            Recovery Act funds for those programs were distributed.




11-R-0208                                                                                               35
      25) Report Page 13, paragraph 2, 3rd sentence, “A number of States used websites to
          solicit public input on specific projects and general areas of interest or need.”

             Public comment is required by statute for completion of SRF Intended Use Plans.
        OIG Response: The sentence in question refers to the states’ use of websites to solicit
        opinions, interest, and specific suggestions from the general public for Recovery Act
        funding. This activity was separate from the public comment process for intended use plans.  


      26) Report, Page 13, paragraph 3, 3rd sentence, “The intent was for the States to target,
          as much as possible, these additional subsidized funds to communities that could not
          otherwise afford a loan…”

          This section mixes joint explanatory statement language and language from EPA
      guidance. It should clearly quote one source or the other. This language does not appear
      in ARRA statute, and the joint explanatory statement language does not have the full
      effect of a law. The SRF capitalization grants guidance clearly identifies this nonbinding
      language, but the EPA could not require compliance with it in the absence of
      corresponding statutory language. ARRA clearly gave flexibility to target subsidy toward
      achieving multiple goals.
       OIG Response: The sentence cited is based on our analysis of available information. We do
       not state that the language is binding or places any specific requirements upon the states, and
       we agree at multiple points in the report that the Recovery Act provided flexibility toward
       achieving multiple goals. The Recovery Act contains the following requirement:

                  That notwithstanding the requirements of section 603(d) of the Federal Water
                  Pollution Control Act or section 1452(f) of the Safe Drinking Water Act, for the
                  funds appropriated herein, each State shall use not less than 50 percent of the amount
                  of its capitalization grants to provide additional subsidization to eligible recipients in
                  the form of forgiveness of principal, negative interest loans or grants or any
                  combination of these...

       The sentence cited above further reflects congressional recognition that issues such as
       socioeconomic disadvantage should be considered in awarding Recovery Act funds, as stated
       in the Joint Explanatory Statement in Conference Report 111-16, “The Conferees expect the
       States to target, as much as possible, the additional subsidized monies to communities that
       could not otherwise afford an SRF loan.”  

      27) Report, Page 13, paragraphs 4 and 5 in their entirety (and Table 3-3): The examples
          and chart do not get to whether and to what extent communities that could not
          otherwise afford a loan were reached, which is the focus of the OIG’s discussion in
          this section as it deals with the SRFs. It is unclear what the OIG is trying to state or
          imply through these paragraphs and chart.
            OIG Response: There are no implications in these paragraphs or charts; they are provided
            to show the funding received by and forgiveness percentages for each of the six states in
            our sample. We provide the reader with information on the amount of funds each state was
            working with, the variability in principal forgiveness amounts, and the flexibility the
            Recovery Act provided to apply forgiveness, as mentioned in the Agency comments.
11-R-0208                                                                                                      36
            Report, Page 14, paragraph 1, 1st sentence, “In Florida, State officials advised that
            state law already provided for some forgiveness of CWSRF funding.”

          This is incorrect. The program allows for some portion of a CWSRF recipient loan to
      be funded or repaid from a separate state-established and funded grant program. Prior to
      ARRA, no CWSRF programs could legally forgive loans or provide grants from CWSRF
      program funds. It is possible the state official meant that current Florida law did not
      preclude the state from forgiving loans under ARRA even though such authority does not
      exist in the base CWSRF program, as contrasted to other states, which needed emergency
      legislation to allow such forgiveness.
        OIG Response: We have adjusted the text accordingly. Revised report statement:
        According to EPA, state law in Florida did not preclude the state from forgiving loans under
        the Recovery Act even though such authority does not exist in the base CWSRF program.


      28) Report, Page 15, paragraph 2, 1st and 2nd sentences, “There were both internal and
          external organizational constraints to the targeting of EPA Recovery Act funds. EPA
          program offices are subject to varying requirements to incorporate socioeconomic
          needs in project selection and funding decisions.”

          The principal constraint remains statutory authority and should be identified as such.
      Further, the text should acknowledge there may actually be no requirement to include
      socioeconomic needs in project selection and funding decisions, which is the case for the
      CWSRF. In the case of the DWSRF, it is not required but is left to the discretion of the
      state as described in SDWA 1452(b)(3)(A)(iii).

        OIG Response: We reiterate that, in our regional survey, only 21 percent of respondents
        viewed underlying statutory authority as an impediment to executing Recovery Act funds.
        While the SRF program managers at EPA headquarters may view this as the principal
        constraint, it is not the Agency-wide opinion. The terminology “varying requirements” already
        reflects the comment that there may be no requirement to consider socioeconomic need. Also,
        nothing prohibits the Agency from encouraging this consideration and providing a clear and
        consistent regime to implement both the Administrator’s priority and EO 12898 related to
        environmental justice.

        In the Agency’s Overall Response to this report, EPA states, “the funding decision process
        varied for . . . Brownfields and Superfund. The nature of both programs, which address
        contaminated sites at former industrial locations or abandoned waste sites, provide significant
        benefit to disadvantaged communities often located near the cleanup projects. EPA states that
        its own analysis of the actual distribution of Brownfields and Superfund awards by county
        compared to population and income factors clearly show that nearly 70 percent of the counties
        that received ARRA Superfund or Brownfields grants had a higher percentage minority
        population than the median county in the U.S.”




11-R-0208                                                                                              37
      29) Report, Page 15, paragraph 2, 3rd sentence, “Within EPA Regions we found varying
          knowledge of where high unemployment rates corresponded with environmental
          needs...”

         It is not clear why regions should possess such data and what they would do with
      such information. As noted throughout, in the SRF programs, states are solely charged
      with selecting and funding projects. These questions should have been posed to state
      managers, rather than the EPA.
       OIG Response: We posed many of these same questions to state managers during our visits.
       However, in assessing EPA’s overall knowledge of and ability to target, track, and assess
       impact on economically disadvantaged communities, it only follows that we would focus our
       evaluation on EPA headquarters and regions. This is consistent with the Agency’s Plan EJ
       2014: “In the past, EPA program and regional offices have relied upon and used different
       screening tools . . . To improve upon our existing efforts, Plan EJ 2014, which was announced
       for public comment in July 2010, has a screening tool as one of its areas for tool development.
       Under this plan, the EPA is working to develop a common mapping platform and a nationally
       consistent screening and targeting tool to enhance environmental justice analysis, funding and
       decision making”. EPA anticipates that, when implemented, such a tool will help ensure that
       the EPA's program managers consider potential environmental-justice concerns more
       consistently as they implement programs within statutory mandates and that community
       stakeholders have more access to information on how the EPA screens for potential
       environmental-justice concerns.


      30) Report, Page 15, paragraph 2, 5th sentence, “Moreover, among the Recovery Act-
          funded programs at EPA, project selection decisions were delegated to the States for
          86% of the funds.”

          The enabling legislation for both SRF programs grants states a range of authorities,
      including which projects are to be funded. Further, the implication is that somehow the
      EPA would have been better suited to make funding decisions. For the SRF programs,
      this is clearly not true. State environmental and public-health agencies implement most
      Clean Water Act and Safe Drinking Water Act programs and, as a result, are much more
      familiar with community needs and challenges. Congress granted SRF programs and
      authority to the states for this reason and for many others. This allows the states to
      flexibly address their environmental and public health needs and priorities. Congress
      passed ARRA with full knowledge of SRF program requirements.

       OIG Response: See comment 3. (This section of the report describes the multiple constraints
       that impacted EPA’s ability to target funds to preserve and create jobs, as well as reach those
       most impacted by the recession. In the first paragraph of EPA’s OVERALL RESPONSE
       section, it notes that states made funding decisions for 86 percent of EPA’s Recovery Act
       funds. There is no value judgment regarding the states’ decisions. We revised the statement to
       remove the term “delegated.” We use the term “Moreover,” as defined by Merriam Webster,
       “to convey information, in addition to what has been said.” Revised report statement:
       “Moreover, among the Recovery Act-funded programs at EPA, the states made the funding
       decisions for 86 percent of the funds.”



11-R-0208                                                                                                38
      31) Report, Page 15, paragraph 3, 3rd sentence, “We found no deliberate effort to target
          or track funds…”

         The enabling legislation for both SRF programs grants states a range of authorities
      and funding determinations, including which projects are to be funded. For the SRF
      program, the EPA possesses and tracks substantive data regarding each loan recipient of
      SRF ARRA funds, and matching jobs data reported under ARRA Section 1512 is
      available via Federalreporting.gov.

       OIG Response: We do not disagree that the information is available. However, the focus
       here is on the Agency’s efforts to track or target funds to economically disadvantaged
       communities and the synthesis of this information for identifying overall impact, not simply
       on job tracking. We found no deliberate efforts to target these communities.




11-R-0208                                                                                             39
                                                                                          Appendix C

   EPA Office of Policy’s Screening-Level Analysis of 

                   EPA ARRA Grants 

                                               1/13/2011

We (EPA Office of Policy) analyzed data on the 178 counties (or county equivalents) that received one or
more EPA Superfund or Brownfields ARRA grants.

Key findings
   •	 Grants tended to be awarded to counties with higher than average percentage minority population,
       but lower than average percentage in poverty.
   •	 Minority population:
           o	 Over 70% and 80%, respectively, of the Superfund and Brownfields grant money went to
               counties where the percent minority population was above that of the median county in
               the US.
           o	 Over $485 million of ARRA Superfund and Brownfields grant money went to counties
               where the percent minority population was above that of the median county in the
               country.
           o	 Nearly 70% of the counties that received ARRA Superfund or Brownfields grants had a
               higher percentage minority population than the median county in the US.
   •	 Populations in poverty:
           o	 Nearly 60% of ARRA Superfund and Brownfields grant money went to counties with
               higher poverty rates than the statewide poverty rate, a slightly higher share than would be
               expected if counties were selected randomly (59% actual versus 56% if random).
           o	 Only 3% of the grant money went to counties in the bottom quintile of poverty rate, and
               only 35% went to the bottom 50% of counties. This suggests that dollars went to states
               with lower poverty rates overall, but had some tendency to go to the poorer counties
               within the selected states.

Methods
Grant data was provided by OEI/OARM as total dollars per county (or equivalent) within each program
(Superfund or Brownfields). Grant data was matched to county-level demographic data. A grant to Fort
Peck Tribal Nation was analyzed using demographics for Roosevelt County, Montana. A grant to “Dade
County” Florida was assumed to apply to Miami-Dade County. All 178 locations will be referred to as
“counties” here. The data includes 10 counties that received both types of grants.

For demographic data, we obtained the new Census Bureau data from the American Community Survey
five-year sample (ACS 2005-2009), and analyzed demographic variables including county-level
percentage of individuals below the Federal poverty threshold, median household income, and percentage
of individuals who were minorities (defined here as all other than non-Hispanic white alone).

Counties and grant dollars were analyzed relative to demographics using several metrics including share
of dollars or counties receiving grants, where demographic indicators were below various cutoffs. We
also summarized demographic indicators among those receiving grants versus the US overall.


11-R-0208                                                                                             40
Results
Results of this screening analysis suggest these grants tended to be awarded to counties with higher than
average percentage minority population, but lower than average percentage in poverty.
Among the 178 counties that received grants, 46 (26%) were in counties that were among the top quintile
(top 20%) of US counties ranked by percentage minority, a larger share than would be expected if awards
were randomly distributed across all counties. Across all counties receiving grants, the population was
43% minority (as a population weighted average), while the US population was just 34% minority. Nearly
70% of the counties that received ARRA Superfund or Brownfields grants had a higher percentage
minority population than the median county in the US.

In fact, 74% of the dollars awarded went to counties that were above the median county in terms of
percentage minority. Over 70% and 80%, respectively, of the Superfund and Brownfields grant money
went to counties where the percent minority population was above that of the median county in the US.
Over $485 million of ARRA Superfund and Brownfields grant money went to counties where the percent
minority population was above that of the median county in the country.

A different pattern was seen for income-related demographics. Across all counties receiving grants, the
population was 12.9% in poverty (as a population weighted average), while the US population was 13.5%
in poverty. Median household income was also about 9% higher for the population in counties receiving
grants than in the US overall.

Only 3% of the grant money went to counties in the bottom quintile of poverty rate, and only 35% went to
the bottom 50% of counties.

However, when comparing each county to the state-specific poverty rate, it appears that grants tended to
slightly favor counties with higher poverty rates relative to their state overall. Nearly 60% of ARRA
Superfund and Brownfields grant money went to counties with higher poverty rates than the statewide
poverty rate, a slightly higher share than would be expected if counties were selected randomly (59%
actual versus 56% if random).

This pattern suggests that dollars may have gone to states with lower poverty rates overall, but had some
tendency to go to the poorer counties within the selected states.

Detailed results are attached.




11-R-0208                                                                                              41
                                                                                                                       Median
                                                                                                                                    unemployment
       EPA ARRA GRANTS FOR BROWNFIELDS AND SUPERFUND                      % minority            % poverty            household
                                                                                                                                       as ratio
                                                                                                                      income*
# of counties (or county equivalents) analyzed                                      3221               3221                  3221             3221
# of counties (or county equivalents) with grants                                    178                178                  178               178
# of counties with grants, where above the US pop. avg.                                57                   85               106                70
as % of counties with grants                                                         32%                48%                  60%               39%
Expected % if random                                                                 24%                58%                  83%               56%
Relative rate                                                                        1.32               0.82                 0.72              0.70
# of counties with grants, where above the avg. county                               91                 42                    45                50
as % of counties with grants                                                         51%                24%                  25%               28%
Expected % if random                                                                 38%                40%                  56%               46%
Relative rate                                                                       1.36               0.59                 0.45              0.61
# of counties with grants, where above the median county                             123                    72                34                61
as % of counties with grants                                                         69%                40%                  19%               34%
Expected % if random                                                                 50%                50%                  50%               50%
Relative rate                                                                        1.38               0.81                 0.38              0.69
# of counties with grants, where above the state pop. avg.                           76                 97                  107                 90
as % of counties with grants                                                         43%                54%                  60%               51%
Expected % if random                                                                 24%                56%                  76%               57%
Relative rate                                                                       1.80               0.98                 0.79              0.88
# of counties with grants, where in top quintile of counties                         46                 13                     1                11
as % of counties with grants                                                         26%                    7%                1%                6%
Expected % if random                                                                 20%                20%                  20%               20%
Relative rate                                                                       1.29               0.37                 0.03              0.31
Dollars of grants                                                        $   659,452,005    $    659,452,005     $    659,452,005   $   659,452,005
Dollars, where above the US pop. avg.                                    $   207,953,585    $    242,421,868     $    314,366,443   $   181,779,741
as % of dollars                                                                      32%                37%                  48%               28%
Expected % if random                                                                 24%                58%                  83%               56%
Relative rate                                                                        1.30               0.63                 0.58              0.49
Dollars, where above the avg. county                                     $   394,144,874    $    145,186,027     $    145,128,991   $   157,442,600
as % of dollars                                                                      60%                22%                  22%               24%
Expected % if random                                                                 38%                40%                  56%               46%
Relative rate                                                                        1.59               0.55                 0.39              0.52
Dollars, where above the median county                                   $   485,271,840    $    232,277,868     $    125,542,170   $   169,013,821
as % of dollars                                                                      74%                35%                  19%               26%
Expected % if random                                                                 50%                50%                  50%               50%
Relative rate                                                                        1.47               0.70                 0.38              0.51
Dollars, where above the state pop. avg.                                 $   267,660,472    $    387,507,589     $    340,829,521   $   366,433,229
as % of dollars                                                                      41%                59%                  52%               56%
Expected % if random                                                                 24%                56%                  76%               57%
Relative rate                                                                        1.72               1.06                 0.68              0.97
Dollars, where in the top quintile of counties                               164,339,016         19,663,420            2,547,405        15,818,247
as % of dollars                                                                      25%                    3%                0%                2%
Expected % if random                                                                 20%                20%                  20%               20%
Relative rate                                                                        1.25               0.15                 0.02              0.12
Population-weighted avg (avg of people), where grant                                42.5               12.9      $        57,541              30.8
Population-weighted avg (avg of people) in US (as reported by Census)               34.2               13.5      $        51,425              31.3
Population-weighted avg (avg of people) in US/PR (calculated here)                  35.0               13.9      $        52,973              31.7
Relative rate                                                                       1.21               0.93                 1.09              0.97
County avg (avg of counties), where grants                                          27.6               13.4      $        51,093              30.9
County avg (avg of counties), in US                                                 22.6               16.2      $        42,818              33.5
Relative rate                                                                       1.22               0.83                 1.19              0.92


                                                                                                                         Median
                                                                                                                       household    unemployment
                                                                              % minority          % poverty              income           as ratio
Cutoff for top quintile counties                                                    >38.7              >20.6              <34,132             >40.5
Cutoff for median county                                                            >13.8              >14.8              <41,322             >32.6
Cutoff for US average county                                                        >22.6              >16.2              <42,818             >33.5
Cutoff for US population average                                                    >34.2              >13.5              <51,425             >31.3


* For household income, comparisons show data below, not above, relevant cutoffs.
Sources: ACS 2005-2009, and EPA grants data.




11-R-0208                                                                                                                                42
                                                                                           Counties receiving 
                                                                              EPA Brownfields or Superfund ARRA grants
                                                                         did not tend to be in the top two quintiles of counties 
                                                     30%
                                                                                        in terms of poverty rate
Percent of counties receiving grants, or of all counties




                                                     25%




                                                     20%
                                                                                                                            all counties

                                                     15%
                                                                                                                            counties with grants


                                                     10%




                                                           5%




                                                           0%
                                                                 0‐10%       10‐13%       13‐16%      16‐21%       21‐66%
                                                                County's poverty rate (grouped by quintile of counties)

Source: EPA Office of Policy Analysis




11-R-0208                                                                                                                                  43 

                                                                            Appendix D
                                    Distribution
Office of the Administrator
Deputy Administrator
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education




11-R-0208                                                                          44
